<html>
<title> - CLIMATE SCIENCE AND EPA'S GREENHOUSE GAS REGULATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                       CLIMATE SCIENCE AND EPA'S 
                       GREENHOUSE GAS REGULATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 8, 2011

                               ----------                              

                           Serial No. 112-16


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
          CLIMATE SCIENCE AND EPA'S GREENHOUSE GAS REGULATIONS




                       CLIMATE SCIENCE AND EPA'S 
                       GREENHOUSE GAS REGULATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

                           Serial No. 112-16


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-704                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California           BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina   DIANA DeGETTE, Colorado
  Vice Chairman                      LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma              MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee          JAY INSLEE, Washington
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                ANTHONY D. WEINER, New York
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  (ii)
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois
GREG WALDEN, Oregon                  JAY INSLEE, Washington
LEE TERRY, Nebraska                  JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            JOHN D. DINGELL, Michigan
BRIAN P. BILBRAY, California         EDWARD J. MARKEY, Massachusetts
STEVE SCALISE, Louisiana             ELIOT L. ENGEL, New York
CATHY McMORRIS RODGERS, Washington   GENE GREEN, Texas
PETE OLSON, Texas                    LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Michigan, opening statement.................................     4
    Prepared statement...........................................     5
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Illinois, prepared statement...................................   202

                               Witnesses

Richard Somerville, Distinguished Professor Emeritus, Scripps 
  Institution of Oceanography....................................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   399
John R. Christy, Director, Earth System Science Center, 
  University of Alabama..........................................    54
    Prepared statement...........................................    56
    Answers to submitted questions...............................   407
Christopher B. Field, Director, Department of Global Ecology, 
  Carnegie Institution of Washington.............................    78
    Prepared statement...........................................    80
    Answers to submitted questions...............................   416
Roger Pielke, Sr., Senior Research Scientist, Cooperative 
  Institute for Research in Environmental Sciences, University of 
  Colorado at Boulder............................................    89
    Prepared statement...........................................    92
    Answers to submitted questions...............................   419
Francis W. Zwiers, Director, Pacific Climate Impacts Consortium, 
  University of Victoria.........................................   102
    Prepared statement...........................................   104
    Answers to submitted questions /1/...........................
Knute Nadelhoffer, Director, University of Michigan Biological 
  Station, University of Michigan................................   119
    Prepared statement...........................................   121
    Answers to submitted questions...............................   423
Donald Roberts, Professor Emeritus, Uniformed Services, 
  University of the Health Sciences..............................   135
    Prepared statement...........................................   137
    Answers to submitted questions...............................   429

                           Submitted Material

Letter of February 9, 2011, by 1,800 doctors, submitted by Mr. 
  Inslee.........................................................   203
Centers for Disease Control, statement...........................   221
Letter of May 7, 2010, by 250 climate scientists, submitted by 
  Mr. Inslee.....................................................   223
Letter of February 2011, by 2,505 scientists, submittted by Mr. 
  Inslee.........................................................   230
Statement of 18 scientific societies, including AAAS, submitted 
  by Mr. Rush....................................................   339
Report entitled ``The US Economic Impacts of Climated Change and 
  the Costs of Inaction,'' by the Center for Integrative 
  Environmental Research at the University of Maryland, submitted 
  by Mr. Rush....................................................   342
Letter of October 11, 2009, scientists and universitites of 
  Wisconsin......................................................   394

----------
\1\ Dr. Zwiers declined to answer the submitted questions for the 
  record.


          CLIMATE SCIENCE AND EPA'S GREENHOUSE GAS REGULATIONS

                              ----------                              


                        THURSDAY, MARCH 8, 2011

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Present: Representatives Whitfield, Terry, Burgess, 
Scalise, McMorris Rodgers, McKinley, Gardner, Griffith, Rush, 
Inslee, and Waxman (ex officio).
    Staff Present: Michael Beckerman, Deputy Staff Director; 
Maryam Brown, Chief Counsel, Energy and Power; Ben Lieberman, 
Counsel, Energy & Power; Dave McCarthy, Chief Counsel, 
Environment/Economy; Gib Mullan, Chief Counsel, CMT; Mary 
Neumayr, Counsel, Oversight/Energy; Sean Bonyun, Deputy 
Communications Director; Andrew Powaleny, Press Assistant; 
Peter Spencer, Professional Staff Member, Oversight; Phil 
Barnett, Minority Staff Director; Greg Dotson, Minority Energy 
and Environment Staff Director; Jeff Baran, Minority Senior 
Counsel; Alexandria Teitz, Minority Senior Counsel, Environment 
and Energy; Karen Lightfoot, Minority Communications Director 
and Senior Policy Advisor; and Caitlin Haberman, Minority 
Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. We will call the meeting to order. And I 
want to thank our panel of witnesses. We appreciate your being 
here this morning very much. And of course, the title of 
today's hearing is Climate Science and the EPA's Greenhouse Gas 
Regulations.
    This is our third hearing on the Energy Tax Prevention Act 
of 2011. The first two focused on the adverse impact that the 
Environmental Protection Agency's global warming regulatory 
agenda would have on jobs and the economy in America. We could 
have had other hearings on that as well, but we decided today 
to focus on the science.
    I might say that I only brought one of my many books that 
questions global warming and the science on global warming. I 
am delighted to see that at least one member brought a number 
of books. I couldn't get all mine in the car. Anyway, that is 
the reason we have these hearings, to hear both sides of the 
issue.
    I might say also that we have had 24 hearings in the House 
of Representatives over the past 4 years relating to the 
science for climate change and/or global warming. One thing 
that really stuck out to me is that these computer models seem 
to have difficulty making seasonal or yearly forecasts and they 
certainly, according to many scientists, have great difficulty 
trying to forecast 100 years down the road.
    Science serves to inform us about the nature of a problem. 
And I look forward to listening to the presentation of all our 
witnesses today. But whether one thinks that science tells us 
that global warming is a serious problem, which some scientists 
do, a minor problem which some scientists do, or hardly a 
problem at all, which some scientists do, the real question 
before this committee is whether EPA's regulations under the 
Clean Air Act are a wise solution to the problem. And, in my 
view, clearly they are not.
    In fact, one need not be a skeptic of global warming to be 
a skeptic of EPA's regulatory agenda. Case in point is EPA 
Administrator Lisa Jackson, and she warned us about how complex 
and costly greenhouse gas regulations under the Clean Air Act 
would be. Now, of course that was in 2009 and 2010, when the 
administration was trying to pass through Congress a cap-and-
trade bill. It is only now that the cap-and-trade legislation 
was not adopted in the Congress that the administrator has 
changed her tune and emphasizes how reasonable and workable 
these rules would be.
    I might also say that Administrator Jackson in testimony 
just a few weeks ago conceded that unilateral action by EPA 
would not make much of a difference, especially given the fact 
that China emits more greenhouse gases than the U.S., and its 
rate of emissions increases has become many times larger than 
ours in recent years. In fact, many people might be interested 
in knowing that carbon emissions actually fell 6 percent in 
2009 in the United States, and China was responsible for 24 
percent of global carbon emissions during that same year.
    Of course, the rhetoric coming from the White House is that 
the sky is falling and carbon emissions are going through the 
roof.
    The number one reason for the reduction in carbon emissions 
is the downturn in our economy. So it is pretty obvious that 
these greenhouse regulations will have a major impact on our 
economy, mainly because we don't yet have an available 
technology to control carbon emissions on a commercial scale.
    Thus far, only one global warming rule has been analyzed by 
EPA, and that is, the new motor vehicle standards. The Agency 
estimated that, as a result of that, they would be able to 
reduce the earth's future temperature by almost \1/100th\ of a 
degree by the year 2100. Not much progress. I want you to keep 
that in mind, however, when you hear about these scary global 
scenarios.
    Even if you believe every word of them, the Agency rules 
are no solution. In fact, they are counterproductive, because 
these unilateral regulations would impose an unfair 
disadvantage on domestic manufacturers and chase some of our 
manufacturing jobs to nations like China that have no such 
restrictions in place and no plans to institute them. 
Manufacturing jobs would go overseas to countries whose 
emissions per unit output are considerably higher. There is no 
question EPA rules are bad economic policy, but they may very 
well also be bad environmental policy.
    The Energy Tax Prevention Act, far from being an attack on 
global warming science, as some have suggested, is, in fact, a 
repudiation of a regulatory scheme that will harm the American 
economy and destroy jobs. It is also a repudiation of the 
attempt by unelected bureaucrats in government to bypass the 
will of Congress. Congress has spoken on this issue three 
specific times and each time has said no.
    H.R. 910 is not about global science. It is about stopping 
regulation certain to do more harm than good, regardless of how 
one interprets the science. It is about a dangerous and job-
destroying attempt to transform the economy in ways that 
Congress has repeatedly rejected.
    As I said, we look forward to your testimony. At this time, 
I recognize the gentleman from Illinois for 5 minutes for his 
opening statement.
    [The prepared statement of Mr. Whitfield follows:]

                     Statement of Hon. Ed Whitfield

    <bullet> This is our third hearing on the Energy Tax 
Prevention Act of 2011.
    <bullet> The first two focused on the adverse impact that 
the Environmental Protection Agency's global warming regulatory 
agenda would have on jobs and the economy. At both hearings, 
several supporters of EPA's regulations wanted to change the 
subject and talk about global warming science instead. I don't 
really blame them, given what we are learning about the harm 
these regulations would do to domestic manufacturing, energy 
production, small business, farming, and other job creating 
sectors. And from a Kentucky perspective, what I learned about 
these regulations and what they would do to coal mining jobs 
and to those who rely upon coal-fired electricity was 
particularly worrisome.
    <bullet> We could probably have another hearing on the 
economic impacts, as we still have not heard from some of the 
many job creating sectors that consider EPA's global warming 
agenda to be one of if not the biggest regulatory threat they 
face. But the minority wanted a separate science hearing and we 
have agreed to their request.
    <bullet> In my view, holding yet another science hearing is 
rather excessive, given that we have had 24 such hearings in 
the House of Representatives over the past 4 years. But I 
suppose some on this committee have already read those 24 
hearing reports from cover to cover, and need additional 
information. In any event, I am pleased to have this diverse 
scientific panel today.
    <bullet> Science serves to inform us about the nature of a 
problem, and I look forward to listening to the presentations 
that follow. But whether one thinks the science tells us that 
global warming is a serious problem, a minor problem, or hardly 
a problem at all, the real question before this committee is 
whether EPA's regulations are a wise solution to that problem. 
Clearly they are not.
    <bullet> In fact, one need not be a skeptic of global 
warming to be a skeptic of EPA's regulatory agenda. No less an 
authority than EPA Administrator Lisa Jackson warned about how 
complex and costly greenhouse gas regulations under the Clean 
Air Act would be. Of course, that was in 2009 and 2010 when the 
administration was trying to scare Congress in to enacting cap 
and trade legislation as the preferred option. It is only now 
that cap and trade is dead that the Administrator has changed 
her tune and emphasizes how reasonable and workable these rules 
will be.
    <bullet> In addition, Administrator Jackson has conceded 
that unilateral action by EPA would not make much difference, 
especially given the fact that China emits more greenhouse 
gases than the US and its rate of emissions increases has been 
many times larger than ours in recent years.
    <bullet> Thus far, only one global warming rule had been 
analyzed by EPA, the new motor vehicle standards. The agency 
has estimate that it will reduce the earth's future temperature 
by about one one-hundredth of a degree by the year 2100.
    <bullet> Keep that in mind when you hear about these scary 
global warming scenarios. Even if you choose to believe every 
word of them, the agency's rules are no solution. In fact, they 
are counterproductive, because these unilateral regulations 
would impose an unfair disadvantage on domestic manufacturers, 
and chase some of those manufacturing jobs to nations like 
China that have no such restrictions in place and no plans to 
institute them. Manufacturing jobs would go overseas to 
countries whose emissions per unit output are considerably 
higher. There's no question EPA's rules are bad economic 
policy, but they may very well also be bad environmental 
policy.
    <bullet> The Energy Tax Prevention Act, far from being an 
attack on global warming science as some have suggested, is in 
fact a repudiation of a regulatory scheme that will only 
succeed in harming the American economy and destroying jobs. It 
is also a repudiation of the attempt by unelected bureaucrats 
to bypass the will of Congress.
    <bullet> HR 910 is not about global warming science, it is 
about stopping regulations certain to do more harm than good, 
regardless of how one interprets the science. It is about a 
dangerous and job destroying attempt to transform the economy 
in ways Congress has repeatedly rejected.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. And I must 
also commend you for allowing us to hold this very important 
hearing today. Mr. Waxman and I, as well as our colleagues on 
this side of the aisle, were adamant in requesting that this 
hearing be held because we believe this subcommittee would be 
doing a disservice to all of our constituents as well as to the 
entire committee process if we were to proceed to marking up 
the Upton-Inhofe bill, which would repeal EPA's ability to 
regulate greenhouse gases, without first hearing from actual 
scientists about what the scientific evidence says regarding 
greenhouse gas emissions and their efforts and their effects on 
both climate change and the overall public health.
    Let us make no mistake about it. With respect to all of the 
witnesses that we will hear from today, that there is really no 
widespread debate among the scientific community on whether 
greenhouse gases contribute to climate change.
    Mr. Chairman, I must note that it seems, though, from your 
opening statement, you are coming over to our side of the 
issue. On the one side, you have over 95 percent of respected 
scientists and scientific organizations worldwide, I might add, 
including the National Academy of Sciences, the American 
Association for the Advancement of Science, the American 
Geophysical Union, the American Meteorological Society, the 
U.S. Global Change Research Program, as well as the 
Intergovernmental Panel on Climate Change. All of these 
organizations are in agreement that man-made greenhouse gases 
do contribute to climate change, and these impacts can be 
mitigated through policy to curb these emissions.
    On the other side, you have a very small, less than 5 
percent, of the scientists in the community, who range from 
straight-out climate change denial to those who would dispute 
the certainty that the claims that human behavior is 
contributing to climate change.
    I recognize that there is a real fear out there by those 
who believe the EPA's attempt to regulate greenhouse gases, 
even if it were only by the largest emitter, would lead to job 
loss in some very important sectors of our economy.
    I represent Illinois, which is one of the largest coal 
States in the country, and I recognize that any policy 
regulating greenhouse gases will have a real consequence on the 
jobs and the economy in my State. And I sincerely believe, 
because the science tells me so, that these gases must be 
regulated because they have a serious and costly impact on 
somebody's health in my State and around the country. And as we 
look out for those people across this Nation that are being 
affected by the pollution associated with greenhouse gases, 
then we must find a way to sensibly address this issue in a 
balanced and in a measured way. For me, the cost of doing 
nothing outweighs the cost of action, because the science tells 
us that we cannot keep living by the status quo.
    I believe we can enact sensible measures that will both 
protect the public's health and create new jobs so that we are 
not making our citizens choose between clean air to breathe and 
jobs to feed their families.
    Mr. Waxman and I sent a letter to you dated September 17, 
Mr. Chairman, asking you work with us in drafting clean energy 
standards so we can move our Nation forward in creating new 
energy jobs and technologies that will put people to work, 
clean our air, and keep America on the forefront of the 
environmental protection industry, an industry that was 
projected to reach $700 billion last year.
    Initially, Mr. Chairman, I would be happy to work with you 
on the clean coal industry, such as expanding programs like the 
Future Gen project which just began operation in Morgan County, 
Illinois; and hopefully we will provide answers on whether coal 
demonstration can be expanded for commercial use. So I ask you, 
Mr. Chairman, and all my Republican colleagues, to remember to 
listen to what the science is telling us, and let's work 
together to move this country forward by creating a clean 
energy standard by working to promote clean coal initiatives, 
and by showing the American people that we can be serious about 
finding solutions and that we are not just here for political 
infighting and scorekeeping.
    Mr. Chairman, I have here something that I think is very 
telling and a demonstration in fact. It comes from the USA 
Today. And the cartoon states: ``What if it is a big hoax and 
we create a better world for nothing?'' But what would we be 
creating? Energy independence, preserve rainforests, 
sustainability, green jobs, liveable cities, renewables, clean 
air, clean water, healthy children, et cetera, et cetera.
    So, Mr. Chairman, even if it is a big hoax, it is a hoax 
that will provide many, many benefits for the American people. 
But I do believe that this is not a hoax. This is the real 
deal. The science says so and the scientists say so.
    Thank you very much Mr. Chairman. I yield back the balance 
of my time.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Thank you, Mr. Chairman, and I must also commend you for 
allowing us to hold this very important hearing today.
    Mr. Waxman and I, as well as all our colleagues on this 
side of aisle, were adamant in requesting this hearing because 
we believe this subcommittee would be doing a disservice to all 
of our constituents, as well as to the entire committee 
process, if we were to proceed to marking up the Upton-Inhofe 
bill, which would repeal EPA's ability to regulate greenhouse 
gases, without hearing from actual scientists about what the 
scientific evidence says regarding greenhouse gas emissions and 
their effects on both climate change and the overall public 
health.
    Let us make no mistake about it, with respect to all of the 
witnesses that we will hear from today, there really is no 
widespread debate among the scientific community on whether 
greenhouse gases contribute to climate change.
    On the one side you have over 95% of respected scientists 
and scientific organizations, worldwide, including the National 
Academy of Sciences, the American Association for the 
Advancement of Science, the American Geophysical Union, the 
American Meteorological Society, the U.S. Global Change 
Research Program, as well as the Intergovernmental Panel on 
Climate Change, all in agreement that man-made greenhouse gases 
do contribute to climate change, and these impacts can be 
mitigated through policy to curb these emissions.
    And on the other side you have a very small group, less 
than 5% of the scientific community, who range from straight-
out climate change deniers to those who would dispute the 
certainty of the claims that human behavior is contributing to 
climate change.
    I recognize that there is real fear out there by those who 
believe that EPA's attempt to regulate greenhouse gases, even 
if it is by only the largest emitters, will lead to job loss in 
some very important sectors in our economy.
    I represent Illinois, which is one the largest coal states 
in the country, and I recognize that any policy regulating 
greenhouse gases will have real consequences on jobs and the 
economy in my state.
    But I sincerely believe, because the science tells me so, 
that these gases must be regulated because they have a serious 
and costly impact on public health, in my state and around the 
country.
    And it is our duty to look out for those people across the 
country, who are being affected by the pollution associated 
with greenhouse gases, and we must find a way to sensibly 
address this issue in a balanced and measured approach.
    For me, the cost of doing nothing outweighs the cost of 
action because the science tells us that we cannot keep living 
by the status quo.
    I believe we can enact sensible measures that will both 
protect the public health and help create new jobs so that we 
are not making our citizens choose between clean air to breathe 
and jobs to feed their families.
    Mr. Waxman and I sent a letter to you dated February 7th, 
Mr. Chairman, asking you to work with us in drafting a clean 
energy standard, so that we can move our country forward in 
creating new energy jobs and technologies that would put people 
to work, clean our air, and also keep America on the forefront 
of the environmental protection industry, an industry that was 
projected to reach $700 billion last year.
    Additionally, I would be happy to work with you, Mr. 
Chairman, on a clean coal initiative, such as expanding 
programs like the FutureGen project, which just began 
operations in Morgan County, IL, and hopefully, will provide 
answers to whether coal sequestration can be expanded for 
commercial use.
    As this USA Today poster here highlights: there are so many 
more benefits in acting to address climate change, as the 
science tells us we must do, including energy independence, 
sustainability, cleaner air and water, and a healthier 
populace, to name a few, than living with the status quo and 
hoping beyond hope that the majority of the world's scientists 
are just wrong.
    So I ask you, Mr. Chairman, and all of my Republican 
colleagues, to listen to what the science is telling us and 
let's work together to move this country forward by creating a 
clean energy standard, by working to promote clean coal 
initiatives, and by showing the American people that we can be 
serious about finding solutions and that we're not just here 
for political infighting and scorekeeping.
    Thank you, Mr. Chairman, and with that I yield back my 
time.

    Mr. Whitfield. Thank you, Mr. Rush.
    At this time, I recognize for 5 minutes the gentleman from 
Texas, Mr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the chairman for calling the hearing. 
I want to thank the witnesses for being here with us today. It 
is likely to be a very lively discussion. And some of you we 
have seen before, some of you this will be your first time 
here. So we are all looking forward to it.
    The science is important. We talk a lot of times about the 
consensus from the International Panel on Climate Change at the 
U.N., but science by consensus is fraught with some danger, and 
certainly Copernicus and Galileo, if they were still living, 
could testify to that effect.
    My opinion, for what it is worth, is that the science 
behind global temperature changes is not settled. And the fact 
that we have this panel of experts in front of us today, who, I 
suspect at some point, will disagree with each other, is 
indicative of that.
    Now, I do know this. We have had these hearings before, 
going back a number of years. In 2008, we saw very, very high 
energy prices, and those were the harbinger of a very 
significant economic collapse. As a consequence, carbon 
emissions in this country went down; but I don't want to do 
that again. And energy prices are on the way back up. We have 
done nothing in the meantime to protect the American people 
from the effect of those high energy prices. And I rather 
expect, if past is prelude, we may see yet another reduction in 
carbon emissions, but it will be brought because of another 
jolt through the American economy.
    And the Administrator of the EPA, in fact, has testified to 
this effect. If Administrator Jackson's efforts are successful 
and if we were to ever pass Waxman-Markey and those efforts 
were to be successful, how do we do this by ourselves when it 
is, in fact, a global climate change that we are talking about?
    So even if we do all of the things that have been suggested 
by the Administrator of the EPA, all of the things suggested by 
Ranking Member Waxman and Mr. Markey, without similar measures 
by other countries, we are damaging our own country and we are 
not saving anybody in the process.
    Now, weather and climate are complex phenomena affected by 
a host of variables. In the 1970s, we have all seen the cover 
of Time Magazine. The earth was cooling and the next Ice Age 
was on the way. It was the consensus of scientists at that time 
that that was fact and there was no point in debating it any 
further. And, we have a very significantly different set of 
variables to contend with today.
    Part of our issue today is, what is the role of the 
scientists in this debate? Are they there to function as a 
gatekeeper? Or, in fact, are they a broker for putting up the 
particular type of information, climate sensitivity to models 
and the way that has been interpreted over time, the role that 
these have had in the existing impacts in our public policy in 
regards to carbon and carbon regulation and the environment.
    We have got a great panel of witnesses. I look forward to a 
lively interchange. I would like, since I am the chairman now, 
to yield the remaining time to Mr. Griffith from Virginia.
    Mr. Griffith. Thank you, Mr. Chairman. I may just have to 
speak loud. Dr. Roberts is a constituent, and it is the first 
time that I have had a constituent testify in front of a 
committee on which I have served. So welcome particularly to 
you, Dr. Roberts.
    And then I would also say to you, Mr. Chairman, and to the 
others that being a Virginian and proud of the good things we 
have done in our history, although not perfect, we have done a 
lot of great things in the Commonwealth of Virginia, and 
sometimes that means standing alone, like when we were the only 
government in the world that recognized the rights to religious 
freedom. And I am often reminded, when folks show up and say, 
well, 95 percent are going this way and everybody but you is 
going that way that, Virginia chose a different course on 
religious freedom, and now the world recognizes that we were 
right. Just because you might be in the minority doesn't always 
mean you are wrong.
    Thank you, Mr. Chairman. I yield my time back.
    Mr. Whitfield. Thank you. Also, we have discovered the 
problems, Mr. Waxman, for the difficulty of speaking. We hit 
the ``mute all'' button, and nobody was allowed to speak. So we 
have now corrected that problem, and I will recognize the 
ranking member of the full committee, Mr. Waxman, for his 5-
minute opening statement.
    Mr. Waxman. Well, I am glad you found the scientific way to 
have all the microphones working, Mr. Chairman.
    Today's hearing is a crucial opportunity for this committee 
to understand what is at stake before it considers legislation 
to block action on climate change. Our health and lives, our 
economic strength, our national security, all are threatened by 
climate change.
    As we will hear today from some of the world's leading 
experts, human-induced climate change is happening. We are 
already seeing its effects and harm from climate changes 
growing. Members of Congress have the responsibility to 
consider the threats facing the Nation and making careful 
choices about how to address them. We owe that to our 
constituents and to future generations.
    I am disappointed that this hearing is happening only 
because committee Democrats insisted on it, but I commend the 
majority for agreeing to our request.
    We now have the opportunity to hear the scientists explain 
the scope and magnitude of harm from climate change. I hope the 
members of this committee are willing to listen.
    The Upton-Inhofe bill would overturn EPA's scientific 
finding that greenhouse gas emissions endanger health and the 
environment. That determination was based on the science we 
will hear about today.
    The Upton-Inhofe bill would remove EPA's authority to 
protect the American public from carbon pollution and the 
impacts of climate change. The bill would legislate a 
scientific finding out of existence, and it would remove the 
administration's main tools to address one of the most critical 
problems facing the world today.
    The premise of this radical legislation, as stated by its 
lead Senate sponsor, is that climate change is a hoax. So 
before we act on this legislation, the members of this 
committee must decide: Do we act because the personal opinions 
of Senator Inhofe; or, do we accept the vast body of scientific 
understanding, based on multiple lines of evidence across 
multiple scientific disciplines, which says that the climate 
change is real and dangerous?
    None of us would hesitate in our own lives. If my doctor 
had told me I had cancer, I wouldn't scour the country to find 
someone to tell me that I didn't need to worry about it. Just 
because I didn't feel gravely ill yet, I wouldn't assume that 
my doctor was falsifying the data. And if my doctor said he 
didn't know how long I had to live, I wouldn't say, well, if he 
is uncertain about that, he is probably wrong about the whole 
thing. I would try to get a second opinion from the best expert 
I could find about the diagnosis. But I would never call the 
findings of the medical experts a hoax.
    Most of us don't substitute our own judgment for that of 
experts when it comes to medicine, nuclear engineering, 
building bridges, designing computer security, trying to figure 
out how to turn the microphones on in the committee room. The 
experts on climate change include atmosphere, chemists and 
physicists, meteorologists, biologists, statisticians, computer 
scientists, paleontologists, and geologists, thousands of 
highly-trained professionals, who have published tens of 
thousands of research papers in the world's top scientific 
peer-reviewed journals. To reject that body of research by 
experts is breathtakingly irresponsible.
    Chairman Upton and Chairman Whitfield, I am not wedded to 
the language of last year's energy bill. I am willing to work 
with you on new approaches and creative ideas. We can start 
from a blank piece of paper. I am prepared to meet with you 
without preconditions for as long as it takes to find the basis 
for common ground. But we need to find a way to work across 
party lines to address this threat to our health, our economic 
prosperity, and our national security. We have an opportunity 
to act now to forestall great harm to our Nation and our world 
if we don't address this challenge, we do not meet our moral 
obligations to our children and to the future, and history will 
not judge us kindly.
    I yield back the balance of my time.
    Mr. Whitfield. Thank you, Mr. Waxman. And now we are 
prepared to hear the testimony of the panel. I would like at 
this point to introduce the panel.
    First, we have Dr. Richard Somerville, who is a Professor 
Emeritus of Scripps Institution of Oceanography, University of 
California, San Diego; we have Dr. John Christy, who is 
Director, Earth System Science Center, University of Alabama, 
Huntsville; we have Dr. Christopher Field, who is the Director, 
Department of Global Ecology, Carnegie Institution of 
Washington in Stanford, California; we have Dr. Roger Pielke, 
Sr., who is senior research scientist, Cooperative Institute 
for Research in Environmental Sciences at the University of 
Colorado; we have Dr. Francis Zwiers, who is the Director, 
Pacific Climate Impacts Consortium, University of Victoria, 
Victoria, British Columbia; we have Dr. Knute Nadelhoffer, who 
is the Director, University of Michigan Biological Station, 
University of Michigan; and we have Dr. Donald Roberts, who is 
Professor Emeritus at the Uniformed Services University of the 
Health Sciences in Bethesda, Maryland.
    We welcome all of you. And you will each have 5 minutes for 
your statement, and then we are going to open it up to the 
panel for questions. And we look forward to your testimony.
    Dr. Somerville, you are recognized for 5 minutes.

   STATEMENTS OF RICHARD SOMERVILLE, DISTINGUISHED PROFESSOR 
EMERITUS, SCRIPPS INSTITUTION OF OCEANOGRAPHY; JOHN R. CHRISTY, 
 DIRECTOR, EARTH SYSTEM SCIENCE CENTER, UNIVERSITY OF ALABAMA; 
  CHRISTOPHER FIELD, DIRECTOR, DEPARTMENT OF GLOBAL ECOLOGY, 
    CARNEGIE INSTITUTION OF WASHINGTON; KNUTE NADELHOFFER, 
DIRECTOR, UNIVERSITY OF MICHIGAN BIOLOGICAL STATION, UNIVERSITY 
  OF MICHIGAN; ROGER PIELKE, SR., SENIOR RESEARCH SCIENTIST, 
 COOPERATIVE INSTITUTE FOR RESEARCH IN ENVIRONMENTAL SCIENCES, 
 UNIVERSITY OF COLORADO AT BOULDER; DONALD ROBERTS, PROFESSOR 
    EMERITUS, UNIFORMED SERVICES, UNIVERSITY OF THE HEALTH 
  SCIENCES; AND FRANCIS W. ZWIERS, DIRECTOR, PACIFIC CLIMATE 
           IMPACTS CONSORTIUM, UNIVERSITY OF VICTORIA

                STATEMENT OF RICHARD SOMERVILLE

    Mr. Somerville. Mr. Chairman and members of the 
subcommittee, I appreciate this opportunity to testify 
concerning the science of climate change. Since 1979, I have 
been a professor at Scripps Institution of Oceanography, 
University of California at San Diego. Today, however, I am 
speaking on my own behalf as a climate scientist.
    To date, the great preponderance of experts agree on the 
following facts: One, the essential findings of mainstream 
climate science are firm; the world is warming. There are many 
kinds of evidence: Air temperatures, ocean temperatures, 
melting ice, rising sea levels, increasing water vapor in the 
atmosphere, twice as many new high temperature records as new 
low temperature records, and much more. Many lines of evidence 
also clearly demonstrate that most of the observed warming is 
due to human activities.
    Two, the greenhouse effect is well understood. It is as 
real as gravity. We have known for 150 years that adding man-
made carbon dioxide to the atmosphere will amplify the natural 
greenhouse effect and trap heat. We know carbon dioxide is 
increasing. We measure that. We know the increase is human 
caused. We analyze the chemical evidence for that.
    Three, our climate predictions are coming true. Many 
recently observed climate changes like rising sea levels are 
occurring at the high end of the predicted ranges. Some 
changes, like disappearing arctic summer sea ice, are happening 
faster than the anticipated worst case. Urgent global action is 
needed if climate disruption is to be limited to moderate 
levels, like the 3.6 degrees Fahrenheit or 2 degree Celsius 
target above pre-industrial 19th century temperatures, a target 
not set by scientists, but by governments and agreed to by the 
G-8 and G-20 nations and the European Union.
    Four, the standard skeptical or contrarian arguments have 
been refuted many times over in technical papers published in 
the peer-reviewed scientific research literature. Nobody today 
should be impressed by these discredited claims.
    Five, science has its own high standards. Science works by 
qualified scientists doing careful research and publishing it 
in well-reviewed scientific journals. It doesn't work by 
opinion-makers on the Internet or television or by bloggers or 
op ed pieces.
    Six, the leading scientific organizations of the world, 
including National Academies of Science and professional 
scientific societies, have carefully evaluated the results of 
climate science and endorsed these results. If the world is to 
confront the challenge of climate change wisely, it must first 
learn what science has discovered, then accept that, and then 
act.
    We are already experiencing impacts of climate change today 
on health, safety, food, water, and security. Some further 
climate change is inevitable, but how much is up to us. This 
problem is solveable. The future lies in our hands. We have the 
technology. We must find the will. The road forks now.
    We can choose a little more warming with relatively mild 
impacts or a lot more warming with serious consequences. If we, 
the world, continues on the current course of increasing 
emissions, there will be a lot more impacts. We and our 
children and grandchildren will experience more floods, 
droughts, and heat waves. We will see severe impacts on food, 
water, energy, and security as global climate is disrupted.
    Humanity can choose today among three courses of action: 
One, to reduce emissions; two, to adapt to the impacts; and, 
three, to suffer. How much of each depends on what we choose to 
do. The more we reduce the emissions, the less adapting and 
suffering will be required.
    The future is not necessarily bleak. It is not too late to 
avoid the worst impacts of manmade climate change. But this is 
an urgent issue, and the urgency is scientific and not 
political or ideological. We have a window of opportunity in 
which to act. It closes soon. If humanity can greatly reduce 
the global emissions of manmade greenhouse gases like carbon 
dioxide and do it fast, then we can greatly reduce the risks of 
dangerous climate change. These will require that these 
emissions peak not in 50 or 100 years, but in 5 or 10 years and 
then decline rapidly so that global emissions are about 80 
percent lower by mid century. The sooner we start, the lower 
the cost and the greater the chance of success.
    Reducing emissions can be done in many ways, and the low-
hanging fruit is to quickly improve energy efficiency. This 
also has many immediate benefits: Reducing dependence on 
imported oil, improving health, creating jobs, making cities 
cleaner and more liveable.
    Our Nation's economic competitiveness depends on 
innovation. If this country takes reducing heat-trapping 
emissions seriously, we can lead in developing and producing 
the clean energy technologies of the future, rather than 
clinging to the dirty energy sources of the past.
    I look forward to answering your questions. Thank you.
    Mr. Whitfield. Thank you, Dr. Somerville.
    [The prepared statement of Mr. Somerville follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.001
    
    [GRAPHIC] [TIFF OMITTED] T6704.002
    
    [GRAPHIC] [TIFF OMITTED] T6704.003
    
    [GRAPHIC] [TIFF OMITTED] T6704.004
    
    [GRAPHIC] [TIFF OMITTED] T6704.005
    
    [GRAPHIC] [TIFF OMITTED] T6704.006
    
    [GRAPHIC] [TIFF OMITTED] T6704.007
    
    [GRAPHIC] [TIFF OMITTED] T6704.008
    
    [GRAPHIC] [TIFF OMITTED] T6704.009
    
    [GRAPHIC] [TIFF OMITTED] T6704.010
    
    [GRAPHIC] [TIFF OMITTED] T6704.011
    
    [GRAPHIC] [TIFF OMITTED] T6704.012
    
    [GRAPHIC] [TIFF OMITTED] T6704.013
    
    [GRAPHIC] [TIFF OMITTED] T6704.014
    
    [GRAPHIC] [TIFF OMITTED] T6704.015
    
    [GRAPHIC] [TIFF OMITTED] T6704.016
    
    [GRAPHIC] [TIFF OMITTED] T6704.017
    
    [GRAPHIC] [TIFF OMITTED] T6704.018
    
    [GRAPHIC] [TIFF OMITTED] T6704.019
    
    [GRAPHIC] [TIFF OMITTED] T6704.020
    
    [GRAPHIC] [TIFF OMITTED] T6704.021
    
    [GRAPHIC] [TIFF OMITTED] T6704.022
    
    [GRAPHIC] [TIFF OMITTED] T6704.023
    
    [GRAPHIC] [TIFF OMITTED] T6704.024
    
    [GRAPHIC] [TIFF OMITTED] T6704.025
    
    [GRAPHIC] [TIFF OMITTED] T6704.026
    
    [GRAPHIC] [TIFF OMITTED] T6704.027
    
    [GRAPHIC] [TIFF OMITTED] T6704.028
    
    [GRAPHIC] [TIFF OMITTED] T6704.029
    
    [GRAPHIC] [TIFF OMITTED] T6704.030
    
    [GRAPHIC] [TIFF OMITTED] T6704.031
    
    [GRAPHIC] [TIFF OMITTED] T6704.032
    
    [GRAPHIC] [TIFF OMITTED] T6704.033
    
    [GRAPHIC] [TIFF OMITTED] T6704.034
    
    [GRAPHIC] [TIFF OMITTED] T6704.035
    
    [GRAPHIC] [TIFF OMITTED] T6704.036
    
    [GRAPHIC] [TIFF OMITTED] T6704.037
    
    [GRAPHIC] [TIFF OMITTED] T6704.038
    
    [GRAPHIC] [TIFF OMITTED] T6704.039
    
    [GRAPHIC] [TIFF OMITTED] T6704.040
    
    [GRAPHIC] [TIFF OMITTED] T6704.041
    
    [GRAPHIC] [TIFF OMITTED] T6704.042
    
    Mr. Whitfield. At this time, Dr. Christy, you are 
recognized for 5 minutes.

                   STATEMENT OF JOHN CHRISTY

    Mr. Christy. Chairman Whitfield, Ranking Member Rush, and 
members, thank you for this opportunity to discuss climate 
change. I am John Christy, Alabama's State climatologist and 
Professor of Atmospheric Science at the University of Alabama 
in Huntsville. My research actually involves building climate 
data sets from scratch to answer questions about what the 
climate is doing and to test assertions from model theory. In 
this verbal testimony, I will briefly address six points that 
are detailed in my written testimony.
    One, extreme events. It is popular now to claim extreme 
events are somehow caused by humans. The earth is very large, 
the weather is very dynamic, and extreme events will occur 
somewhere every year. A quick analysis shows that, A, floods in 
England in 2000 and Australia in 2010 have been exceeded 
several times in the past; B, snowstorms in the eastern U.S. 
occur as part of natural circulation processes; and, C, the 
recent Russian heat wave and related flooding in Pakistan were 
due to blocking systems which occur without appeal to human 
causes. Natural, unforced climate variability explains these 
events.
    Two, the underlying temperature trend. An updated analysis 
of the underlying trend of global atmospheric temperature over 
the past 32 years, which accounts for volcanos and El Ninos, 
shows that an atmospheric warming rate of only \9/100ths\ of a 
degree has occurred per decade. This is the same value 
published in my 1994 analysis, which covered only 15 years 
then. This rate is one third of that suggested by climate model 
theory.
    Three, patterns of warming. Continued research on surface 
temperature changes over land indicates nighttime warming but 
little daytime change. This is a classic feature that arises 
from land use change, not greenhouse gas warming.
    For the tropical atmospheric temperature, several new 
studies verify our earlier work that observations and models do 
not agree about the rate of tropical warming.
    Four, climate sensitivity and feedback. New research 
addresses a question fraught with uncertainty and contention: 
How sensitive is the climate system to extra greenhouse gases? 
My colleague, Dr. Roy Spencer, has shown that for time periods 
for which this quantity can be assessed, the observations 
indicate the earth has strong negative feedbacks that mitigate 
warming impulses. No model reproduces these type of feedbacks, 
and so this is a clue as to why models tend to show more 
warming than is observed when they add CO<INF>2</INF>.
    Five, consensus science. Widely publicized reports, 
purportedly by thousands of scientists, are often 
misrepresentative of our science and contain overstated 
confidence in their assertions. Very few scientists actually 
control the content of these reports, and they rarely represent 
the full range of scientific opinion and uncertainty that 
attends our relatively murky science.
    I understand the House has approved an amendment to defund 
the IPCC. I describe our proposal in my written testimony that, 
should the IPCC be funded by taxpayers, then 10 percent should 
be set aside for a written report by credentialed scientists 
who have consistently found the IPCC to have underrepresented 
critical issues, such as the evidence for low climate 
sensitivity, the importance in natural unforced variability, 
and a focus on metrics that are of little value in 
understanding the greenhouse effect.
    And finally, number six, impact of emission control 
measures. Five years ago, I testified before the Oversight and 
Investigation Subcommittee chaired by you, Congressman 
Whitfield. At that time, I calculated the impact of 
CO<INF>2</INF> emissions if we built 1,000 1.4 gigawatt nuclear 
power plants, and that they were added by 2020. That is not 
going to happen. But using the average climate model 
sensitivity, I demonstrated that global temperatures would 
change very little. But with the new evidence that the climate 
is less sensitive to CO<INF>2</INF> increases, the impacts will 
be even tinier. Developing countries will dominate emissions 
growth as they seek to rise out of poverty, a goal we cannot 
and should not subvert, which requires low-cost energy which is 
today carbon-based.
    Thank you. And I will be happy to answer questions at the 
appropriate time.
    Mr. Whitfield. Thank you, Dr. Christy.
    [The prepared statement of Mr. Christy follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.043
    
    [GRAPHIC] [TIFF OMITTED] T6704.044
    
    [GRAPHIC] [TIFF OMITTED] T6704.045
    
    [GRAPHIC] [TIFF OMITTED] T6704.046
    
    [GRAPHIC] [TIFF OMITTED] T6704.047
    
    [GRAPHIC] [TIFF OMITTED] T6704.048
    
    [GRAPHIC] [TIFF OMITTED] T6704.049
    
    [GRAPHIC] [TIFF OMITTED] T6704.050
    
    [GRAPHIC] [TIFF OMITTED] T6704.051
    
    [GRAPHIC] [TIFF OMITTED] T6704.052
    
    [GRAPHIC] [TIFF OMITTED] T6704.053
    
    [GRAPHIC] [TIFF OMITTED] T6704.054
    
    [GRAPHIC] [TIFF OMITTED] T6704.055
    
    [GRAPHIC] [TIFF OMITTED] T6704.056
    
    [GRAPHIC] [TIFF OMITTED] T6704.057
    
    [GRAPHIC] [TIFF OMITTED] T6704.058
    
    [GRAPHIC] [TIFF OMITTED] T6704.059
    
    [GRAPHIC] [TIFF OMITTED] T6704.060
    
    [GRAPHIC] [TIFF OMITTED] T6704.061
    
    [GRAPHIC] [TIFF OMITTED] T6704.062
    
    [GRAPHIC] [TIFF OMITTED] T6704.063
    
    [GRAPHIC] [TIFF OMITTED] T6704.064
    
    Mr. Whitfield. Dr. Field, you are recognized for 5 minutes.


                 STATEMENT OF CHRISTOPHER FIELD

    Mr. Field. Thank you, Chairman Whitfield, Mr. Rush, and 
distinguished members of the committee. It is a pleasure to 
speak with you today. And I want to congratulate you on the 
initiative to consider climate sciences and its importance for 
the country and the future.
    I am a professor of environmental earth system science at 
Stanford University and director of the Carnegie Institution's 
Department of Global Ecology. I have worked on climate change-
related issues for the past 25 years. And I want to start with 
two key foundational points. The first is that climate warming 
over the last century is unequivocal and primarily human 
caused. The second is that climate changes are already 
occurring in the United States and they are projected to grow 
in the future.
    It is important to realize that the world has convened a 
large number of scientific organizations, several in the United 
States, coordinated by the U.S. Global Change Research Program, 
by the National Academy of Sciences, or internationally by the 
Intergovernmental Panel on Climate Change. And in each of these 
consortia, there has been an aggressive, comprehensive effort 
to consolidate views across the spectrum of climate science. We 
haven't looked at institutions that have been put together to 
reflect one perspective or another. And when we see as what 
appears as consensus statements, these are overviews of the 
positions of the wide range of climate scientists, including 
the full diversity of positions and the measured statements 
that come from these assessments are in fact reflecting the 
entire diversity across the spectrum of legitimate science.
    What I would like to do in my comments is focus 
specifically on relatively recent research on the sensitivity 
of key sectors in the United States to climate change. My 
distinguished colleagues who focus more on atmospheric science 
will talk about where we are headed with the climate and where 
we have been, but what I want to do is talk about sensitivity 
that is observed from data, not based on simulations, that 
takes advantage of the fact that, for example, the U.S. 
Department of Agriculture has been surveying crop fields very, 
very carefully over the last more than 100 years. And I want to 
focus on two important sectors for the United States. The first 
is yields of agriculture and their sensitivity to climate 
change; the second is wildfires in the west and its sensitivity 
to climate change.
    By looking at the summary of global agriculture yields over 
the last 50 years or so, we can see that agriculture is one of 
the triumphs of human ingenuity. We have been able to increase 
crop yields by 1 percent to 2 percent per year over many 
decades, but there is increasing evidence that we are doing 
this with an anchor or climate change that is pulling us back. 
By looking at the year-to-year variations in climate change, we 
can see that for several of the world's major food crops, there 
has been a negative effect of warming that is occurring on our 
ability to increase yields, such that for crops including 
wheat, corn, and barley, we are seeing a decrease globally that 
means that something like 40 million tons of food production 
has been foregone as a consequence of the climate changes that 
have already occurred.
    For each of these crops, we see a sensitivity to warming, 
based on observations, not simulations, of something like 10 
percent yield loss for each 1.8 degrees Fahrenheit of warming. 
In terms of 2002 ag yields, this 40 million tons of foregone 
productivity represents an economic loss of about $5 billion.
    Recently, Wolfgang Schlenker and John Roberts have explored 
the climate sensitivity of U.S. agriculture using an incredibly 
detailed data set that has allowed them to, with much higher 
precision, assess the sensitivity of U.S. crops. And what they 
find is that for corn, soybeans, and cotton, there is a 
profound sensitivity to warming such that at a threshold that 
is about 82 for corn, 84 for soybeans, and about 90 for cotton, 
you see a very steep drop-off in productivity as temperatures 
rise above that. There is no question that temperatures are at 
these thresholds and exceeding them relatively frequently.
    With wildfires, we see a pattern where warmer, longer 
summers increase the probability of wildfires. And what we have 
seen by summarizing wildfire data is that in the United States 
a warming of 1.8 Fahrenheit increases on average the area in 
the west that has burned from 1.3 million acres per year to 4.5 
million acres per year. These are profound effects that 
indicate, based on observations, the deep sensitivity of U.S. 
activities.
    Mr. Whitfield. Thank you very much, Dr. Field.
    [The prepared statement of Mr. Field follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.065
    
    [GRAPHIC] [TIFF OMITTED] T6704.066
    
    [GRAPHIC] [TIFF OMITTED] T6704.067
    
    [GRAPHIC] [TIFF OMITTED] T6704.068
    
    [GRAPHIC] [TIFF OMITTED] T6704.069
    
    [GRAPHIC] [TIFF OMITTED] T6704.070
    
    [GRAPHIC] [TIFF OMITTED] T6704.071
    
    [GRAPHIC] [TIFF OMITTED] T6704.072
    
    [GRAPHIC] [TIFF OMITTED] T6704.073
    
    Mr. Whitfield. And Dr. Pielke, you are recognized for your 
5-minute opening statement.

                   STATEMENT OF ROGER PIELKE

    Mr. Pielke. Thank you. I have worked throughout my career 
to improve environmental issues, including air quality, by 
conducting research, teaching, and also providing 
scientifically rigorous information to policymakers. At the 
State level, I served two terms on the Colorado Air Quality 
Control Commission, where we developed the oxygenated fuels 
program through reduce carbon dioxide emissions from vehicles, 
promulgated regulations to mandate strict controls on wood and 
coal burning in residential fireplaces and stoves, and on 
asbestos concentrations in the air.
    In my testimony today and in more detail in my written 
testimony, I have four main points.
    First, research has shown that a focus on just carbon 
dioxide and a few other greenhouse gases as the dominant human 
force on climate is too narrow and misses other important 
influences.
    Two, the phrases global warming and climate change are not 
the same. Global warming is a subset of climate change.
    Three, the prediction or projection of reasonable weather 
including extremes decades into the future is far more 
difficult than commonly assumed. As well, the attribution of a 
string of events to a particular subset of climate force scenes 
is scientifically incomplete if the research ignores other 
relevant human and natural causes of extreme weather events.
    And, four, the climate science assessments of the IPCC and 
CCSP, as well as the various statements issued by the AGU, AMS, 
and NRC are completed by a small subset of climate scientists 
who are often the same individuals.
    Decisions about government regulation are ultimately legal, 
administrative, legislative, and political decisions. As such, 
they can be informed by scientific considerations but they are 
not determined by them. In my testimony, I seek to share my 
perspectives on the science of climate based on my work in this 
field over the past four decades.
    First, the production of multi-decadal climate predictions 
of reasonable impacts whose skill cannot be verified until 
decades from now is not a robust scientific approach. Models 
themselves are hypotheses. The steps of hypotheses written with 
respect to climate predictions are, first, make a prediction; 
quantitatively the prediction with real-world observations, 
that is test the hypothesis; and, three, communicate the 
assessment of the scale of the prediction.
    There is no way to test that a hypothesis with a multi-
decadal global climate model forecast for decades from now as 
step two as a verification of the skill of these forecasts is 
not possible until decades pass.
    There has also been a misunderstanding of the relationship 
between global warming and climate variability and longer term 
change. Global warming is typically defined as an increase in 
the global average surface temperature. A better metric is the 
global annual average heat content measured in Joules. Global 
warming involves the accumulation of heat and Joules within the 
components of the climate system. This accumulation is 
dominating by the heating and cooling within the upper layers 
of the ocean.
    Climate change, in contrast, is any multi-decadal or longer 
alteration in one or more physical, chemical, and/or biological 
components of the climate system. Climate change involves, for 
example, changes in fauna and flora, snow cover, and so forth, 
which persists for decades and longer. Climate variability can 
then be defined as changes which occur on shorter time periods.
    With respect to climate change. In 2009, 18 fellows of the 
American Geophysical Union accepted an invitation to join me in 
a paper where we discuss three different mutually exclusive 
hypotheses with respect to the climate system.
    Hypothesis 1. Human influence on climate variability and 
change is of minimal importance, and natural causes dominate 
climate variations and changes on all time scales. In coming 
decades, the human influence will continue to be minimal.
    Hypothesis 2a. Although the natural causes of climate 
variations and changes are undoubtedly important and human 
influences are significant and involve a diverse range of 
first-order climate forcings, including but not limited to the 
human input of carbon dioxide. Most, if not all, of these human 
influences on regional and global climate will continue to be 
of concern for the coming decades.
    Hypothesis 2b. Although the natural causes of climate 
variation and change are undoubtedly important, the human 
influences are significant and dominated by the emissions in 
the atmosphere of greenhouse gases, the most important of which 
is carbon dioxide. The adverse effect of these gasses on 
regional and global climate constitutes the primary climate 
issue for the coming decades.
    Hypothesis 2b, the one with the CO<INF>2</INF> dominance, 
is the IPCC perspective. In our EOS paper we concluded, 
however, that only hypothesis A has not been refuted. 
Hypotheses 1 and 2b are inaccurate characterizations of the 
climate system.
    In our 2009 paper, we concluded, in addition to greenhouse 
gas emissions, the other first order forcings are important to 
understand the earth's climate. These forcings are spatially 
heterogeneous and include effects of aerosols on clouds and 
associated precipitation, the use of aerosol deposition, and 
reactive carbon in the roles of land use and land cover change. 
Among their effect is the role in altering atmospheric and 
ocean circulations away from what they would be in a natural 
climate system. As with CO<INF>2</INF>, the length of time that 
they affect the climate or estimated on multi-decadal time 
scales are longer.
    We concluded, therefore, the cost benefit analysis 
regarding the mitigation of carbon dioxide and other greenhouse 
gases need to be considered along with other human climate 
forces in a broader environmental context, as well with respect 
to the role on the climate system.
    Unfortunately, the 2007 IPCC assessment did not 
significantly acknowledge the importance of these and other 
human climate forcings in altering regional and global climate 
and their effects on predictability at the regional scale.
    A major conclusion indicated from these studies is that 
regional atmospheric and ocean circulation features produce 
extreme events, not a global annual average surface temperature 
anomaly. It is the multi-decadal change and the statistics of 
these circulation features in response----
    Mr. Whitfield. You can complete.
    Mr. Pielke. In response to natural and human forcings and 
feedbacks which must be skillfully predicted, this level of 
predictive scale has not been achieved even in hindcasts of 
past decades.
    And my last point is policymakers and the public rarely 
encounter this broader view of the climate system, in part, due 
to the limited number of scientists who are leading climate 
assessments. As just one example, I present my experience with 
the first CCS report, and my experience is documented in a 
public comment.
    In the executive summary of that report, I stated: The 
processes for completing the CCS report excluded valid 
scientific perspectives under the charge of the committee. The 
editor of the report systematically excluded a range of views 
on the issues of understanding reconciling lower atmospheric 
temperature trends.
    Future assessment committees need to appoint members with a 
diversity of views who do not have a significant conflict of 
interest with respect to their own work. Such committees should 
be chaired by individuals committed to the presentation of a 
diversity of perspectives and unwilling to engage in strong-arm 
tactics to enforce a narrow perspective. Any such committee 
should be charged with summarizing all relevant literature, 
even if inconvenient or which presents a view not held by 
certain members of the committee.
    Finally, I have proposed a new approach in the climate 
committee based on a bottom-up resource-based perspective. 
There are five broad areas that we can use to define a need for 
this assessment.
    Mr. Whitfield. OK. Thanks.
    [The prepared statement of Mr. Pielke follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.074
    
    [GRAPHIC] [TIFF OMITTED] T6704.075
    
    [GRAPHIC] [TIFF OMITTED] T6704.076
    
    [GRAPHIC] [TIFF OMITTED] T6704.077
    
    [GRAPHIC] [TIFF OMITTED] T6704.078
    
    [GRAPHIC] [TIFF OMITTED] T6704.079
    
    [GRAPHIC] [TIFF OMITTED] T6704.080
    
    [GRAPHIC] [TIFF OMITTED] T6704.081
    
    [GRAPHIC] [TIFF OMITTED] T6704.082
    
    [GRAPHIC] [TIFF OMITTED] T6704.083
    
    Mr. Whitfield. Dr. Zwiers, you are recognized for 5 
minutes.

                  STATEMENT OF FRANCIS ZWIERS

    Mr. Zwiers. Thank you, Chairman. Thank you, Mr. Rush. Thank 
you, committee members. I am privileged as a Canadian to be 
able to speak to this body. It is truly an honor to be able to 
do so.
    I have trained as a statistician, I have spent all of my 
career applying the tools of statistics to problems in climate 
research, and I have held various positions in climate research 
enterprises. I am currently a professor at the University of 
Victoria.
    There is a growing body of literature available that 
examines both the observed changes in temperature and 
precipitation extremes. These are events that, of course, do 
happen all the time. A 100-year event at a particular location 
is expected to recur at that location once every 100 years. The 
question that we are posing to ourselves in this literature is 
whether or not humans influencing the climate system are 
tilting the odds and are increasing the likelihood of an event 
from a one-in-100-year event to perhaps a more frequent event. 
And this is the kind of evidence that the literature seems to 
be turning up. The literature shows that extreme warm 
temperatures seem to becoming more likely over time and extreme 
cold temperatures seem to be becoming less likely over time, 
and very intense precipitation is becoming more likely. And 
these are phenomena that we are generally observing at 
operational meteorological observing stations basically 
throughout the world where the data are available.
    These are changes that are expected with an overall warming 
climate. We have observed the shift to warmer temperatures. We 
understand a lot about the causes of those rises. The warming 
climate leads to increases in the likelihood of extreme warm 
temperatures. It leads to decreases in the likelihood of 
extreme cold temperatures. We have observed both of those 
phenomena. It leads to increases in the amount of water vapor 
that is held by the free atmosphere, something that has also 
been observed, and that creates conditions that would allow 
more intense precipitation events to occur, something that we 
are beginning to see in observations as well.
    Climate models simulate extreme events, and climate models 
simulate changes in extreme events that correspond more or less 
to changes that have been observed, and those models are run 
with historical increases in greenhouse gases and changes in 
other forcing factors. Changes in the amount of aerosol that is 
present in the atmosphere, for example, another product of 
fossil fuel combustion.
    Statistical analysis of the observations finds evidence 
that these signals that are anticipated by climate models are 
present in the observations. We find this evidence with high 
confidence in the case of temperature extremes and with 
somewhat lower confidence in the case of precipitation 
extremes, but in both cases, it would be difficult to explain 
observed changes with natural climate variability alone. The 
most plausible explanation for observed changes in temperature 
extremes and observed changes in precipitation extremes is 
human influence on the climate system and human-induced 
increase in greenhouse gases in the atmosphere.
    With regard to temperature, we are beginning to be 
confident enough so that we can cautiously attempt to estimate 
changes in waiting times for rare events. You could think of 
the 20-year extreme temperature event. In the case of cold 
temperature events that were expected to recur about once every 
20 years in the 1960s, we see that by the end of the 20th 
century these events were recurring roughly two times as 
frequently, they became roughly 10-year events, and we are able 
to attribute that change and probability of likelihood in 
extreme cold temperature events to increasing greenhouse gas 
concentrations.
    Similar results are available for warm temperature 
extremes. In the case of precipitation, the odds of extreme 
events has appeared to increase, but it is generally too soon 
to quantify scientifically the extent to which those odds have 
changed. So we have evidence that indicates that human 
influence on the climate system is tilting the odds towards 
more intense precipitation events, but at this stage, we are 
not able to say by how much.
    A few events have been studied in detail. One that has been 
studied in detail was the European 2003 heat wave, which was an 
event that took 40,000 lives. It is very likely that human 
influence on climate increased the odds of that event by a 
factor of at least two. In the case of the U.K. flooding in the 
fall of 2000, it is also very likely that human influence has 
increased the odds of flooding. The best estimate is the risk 
was doubled.
    So these kinds of events have significant impacts. Heat 
waves cause death. Flooding cause death, damage, and enormous 
economic impacts. Even seemingly benign changes can have 
negative impacts. If you think of the reduced intensity of cold 
extremes in wintertime, this has been linked to forest bark 
beetle outbreaks throughout western North America which have 
devastated forest industries in western North America as an 
impact of climate change over the last several decades.
    The available studies are subject to uncertainties, and 
therefore do not provide the final word on the question of 
whether and by how much increasing greenhouse gas 
concentrations has affected the frequency and intensity of 
extreme weather events, but they provide sufficient evidence, I 
believe, to indicate that human influence is having an effect 
on high impact events to put people and their livelihood at 
risk and provide an additional piece of information for taking 
action on greenhouse gas emissions. Thank you.
    Mr. Whitfield. Thank you, Dr. Zwiers.
    [The prepared statement of Mr. Zwiers follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.084
    
    [GRAPHIC] [TIFF OMITTED] T6704.085
    
    [GRAPHIC] [TIFF OMITTED] T6704.086
    
    [GRAPHIC] [TIFF OMITTED] T6704.087
    
    [GRAPHIC] [TIFF OMITTED] T6704.088
    
    [GRAPHIC] [TIFF OMITTED] T6704.089
    
    [GRAPHIC] [TIFF OMITTED] T6704.090
    
    [GRAPHIC] [TIFF OMITTED] T6704.091
    
    [GRAPHIC] [TIFF OMITTED] T6704.092
    
    [GRAPHIC] [TIFF OMITTED] T6704.093
    
    [GRAPHIC] [TIFF OMITTED] T6704.094
    
    [GRAPHIC] [TIFF OMITTED] T6704.095
    
    [GRAPHIC] [TIFF OMITTED] T6704.096
    
    [GRAPHIC] [TIFF OMITTED] T6704.097
    
    [GRAPHIC] [TIFF OMITTED] T6704.098
    
    Mr. Whitfield. Dr. Nadelhoffer, you are recognized for 5 
minutes.

                 STATEMENT OF KNUTE NADELHOFFER

    Mr. Nadelhoffer. Thank you, Chairman Whitfield, Ranking 
Member Rush, and other members of the committee. It is a true 
pleasure and honor to be testifying before you, and I very much 
appreciate the opportunity. My name is Knute Nadelhoffer. I am 
a researcher and professor of ecology. I am not a climatologist 
or a climate scientist, but I study the effects of all kinds of 
factors as they affect arctic and arctic ecosystems and 
tempered forests.
    I worked for 20 years as a researcher in Woods Hall, 
Massachusetts, at the marine biological laboratory, and for the 
past 8 years I have been a professor at the University of 
Michigan in Ann Arbor.
    I am also the director of a major field station near the 
center of the Great Lakes Basin. Our field station, the 
University of Michigan biological station, is over 100 years 
old. It attracts researchers from around the world who have 
been recording distributions of plants and animals, ecosystem 
properties, and interactions between humans and their 
environments for over a century.
    That field station is in the middle of the largest 
freshwater system in the world. Twenty percent of the world's 
surface freshwater is in the Great Lakes Basin. Our economy, 
the economy of the eight States and Canadian provinces that 
surround the Great Lakes are the third or fourth largest 
economy in the world, and in our region we interact intimately 
with our natural resources to sustain our economy and our 
culture. So we pay very close attention to what happens around 
us.
    Measurements at my field station and others across the 
Great Lakes region are providing knowledge and insights into 
changes in ecosystems associated with the changes in climates 
that we have heard about.
    Climate change is real. You have heard that from others on 
the panel. The fact that there is a consensus is minor in my 
view. The evidence is what drives our conclusions, and science 
is an evidentiary-based process. The evidence is strong and 
overwhelming. We can measure its effects in the Great Lakes 
region, and we know that the change is primarily driven by 
increases in greenhouse gases. In fact, even the skeptics call 
these gases greenhouse gases. We can thank them for warming the 
planet as much as it is. Excursions that we are now 
encountering and experience are likely to drive our planet to a 
warmer state. They have, in fact.
    In the Arctic, where I have worked for 20 years on the 
north slope of Alaska, we see changes, changes in vegetation. 
There is now more shrub cover in the Arctic, but more 
importantly, summer ice cover has decreased by 30 percent in 
the satellite records since 1978. Less summer sea ice means 
less reflection of heat back into space and more absorption of 
heat by the ocean. This has huge implications for global 
climate, as our climate scientists will tell you.
    Not only is the Arctic warming but the Great Lakes region 
is warming--in the north by 4 degrees Fahrenheit; in the 
southern part of the Great Lakes region by 1 degree since 1978.
    Stunning is the fact that Lake Superior has warmed by 4\1/
2\ degrees in the past 30 years. That is a lot of joules. That 
is a lot of energy. Lake Superior is a big thermometer. It is 
the deepest lake and the largest lake in the Western 
Hemisphere, second largest in the world, and it is warming at a 
rate that no one thought it would.
    Ice cover is decreasing on the Great Lakes. It varies year 
to year, but over decades we can see that the ice cover is 
lower. That affects our climate. That affects evaporation from 
the lakes.
    In the Great Lakes itself, in the region, total annual 
precipitation has been relatively constant over the past 50 
years, but major storm events have increased by a factor of 
two, and those major storms tend to come in the springtime, 
late winter; and they are balanced by droughts in the summer, 
and we feel it. Our coastal cities, small cities, like South 
Haven on the west coast of Michigan, and larger cities like 
Milwaukee on the east coast of Wisconsin, have storm sewer 
systems that are now compromised. They were built 50 years ago, 
and they can't handle the floods. So we are paying a cost in 
terms of infrastructure.
    We are experiencing more late-winter, early-spring storms, 
more summer droughts and heat events. Not only does this 
compromise our infrastructure, but it can degrade drinking 
water quality, lead to the export of nutrient sediments into 
our lakes, exacerbating dead zones. It delays planting in 
springtime and stresses crops in the summer.
    We have heard about the heat tolerances of corn and 
soybeans, which are major crops in the Midwest. It stresses 
them for us, making them more vulnerable to pests, and 
jeopardizing a $40 billion forest products industry. It reduces 
summer swim flow and groundwater recharge and threatens our 
tourist and recreation industry which is a part of our culture.
    Business-as-usual scenarios of various greenhouse gas 
emissions will exacerbate these trends, compromising our 
environment and the economy and culture and water of this 
resource-rich region.
    Thank you very much for listening to me. I look forward to 
questions.
    Mr. Whitfield. Thank you very much.
    [The prepared statement of Dr. Nadelhoffer follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.099
    
    [GRAPHIC] [TIFF OMITTED] T6704.100
    
    [GRAPHIC] [TIFF OMITTED] T6704.101
    
    [GRAPHIC] [TIFF OMITTED] T6704.102
    
    [GRAPHIC] [TIFF OMITTED] T6704.103
    
    [GRAPHIC] [TIFF OMITTED] T6704.104
    
    [GRAPHIC] [TIFF OMITTED] T6704.105
    
    [GRAPHIC] [TIFF OMITTED] T6704.106
    
    [GRAPHIC] [TIFF OMITTED] T6704.107
    
    [GRAPHIC] [TIFF OMITTED] T6704.108
    
    [GRAPHIC] [TIFF OMITTED] T6704.109
    
    [GRAPHIC] [TIFF OMITTED] T6704.110
    
    [GRAPHIC] [TIFF OMITTED] T6704.111
    
    [GRAPHIC] [TIFF OMITTED] T6704.112
    
    Mr. Whitfield. And, Dr. Roberts, you are recognized for 5 
minutes.

                  STATEMENT OF DONALD ROBERTS

    Mr. Roberts. Thank you, Chairman Whitfield, Ranking Member 
Rush, and members of the committee for the opportunity to be 
here this morning.
    I am a retired professor emeritus of tropical public 
health. I follow closely the debate on claims of public health 
harm from climate change. There are parallels in claims about 
climate change and regulatory controls of carbon dioxide and 
claims about insecticides and human health. The arguments for 
government interventions in both topic areas rests on fearful 
claims, doomsday predictions of devastating consequences in the 
absence of regulatory intervention, and in my mind, this is 
fear messaging.
    Thirty-nine years ago, the EPA took a political position to 
ban a famous insecticide, DDT. Global public health leaders at 
that time repeatedly and firmly warned that a ban would cause 
return of devastating diseases and millions and millions of 
deaths. In 1972, in spite of those warnings, the EPA banned 
DDT. The public health community was right, and the results of 
that decision have been devastating.
    I raise the issue of this famous insecticide because it is 
an excellent example of the harm that arises when politics and 
ideology trump science. Poor people in malaria countries are 
paying every day for an EPA decision taken 4 decades ago. As 
supporting documentation, I am submitting for the record recent 
statements by Ministers of Health of Namibia and Guyana, as 
well as a recent peer-reviewed paper I coauthored confirming an 
ideological agenda which is, regrettably, supported by the EPA.
    As I document in written testimony, those who campaigned to 
reduce CO<INF>2</INF> emissions through EPA regulatory controls 
are striving to show climate change is a source of harm to 
public health. Claims of such harm are necessary for fear 
messaging. These claims are reflected in many attempts to 
attribute all sorts of increases in malaria, dengue, and other 
diseases to global warming. Again, I offer documentation of 
this in written testimony.
    However, attempts by climate change advocates to link those 
diseases to climate change have been vigorously rebutted. While 
climate can affect disease rates, there is most assuredly no 
simple relationship between climate and public health. The 
truth is those diseases are under control of many complex and 
dominant factors, with condition of human poverty and man's own 
effort to control them being most important.
    As evidence to back up this statement, I would point to the 
different conditions of public health on the border of Mexico 
and Texas. I could also point to the differences in insect-
borne disease rates on the border areas between Mozambique and 
South Africa. Both those cases show how, under the same 
climatic conditions and same geography, divergent public health 
outcomes are achieved thanks to differing poverty rates and 
man's efforts in disease control.
    Growing publicity about climate change and asthma shows an 
effort to prove climate change harms public health are 
unabated. In written testimony, I review a recent well-
publicized paper on this topic. My area of expertise is in 
tropical public health, but I review this paper as a scientist 
and a taxpayer, and I question the political agenda of 
highlighting climate change as an asthma problem. If we accept 
that it will worsen asthma, the question that arises is, what 
should we do about it? How are we to improve the health and 
welfare of those suffering from asthma? The whole body of 
asthma science points to conditions of poverty being dominant 
risk factors for asthma. Thus, if we want to reduce asthma 
problems, then, first, our goal is to improve our economy and 
eliminate conditions of poverty. It is a mistake to believe 
that greater EPA control over carbon dioxide will make the 
slightest difference for asthma sufferers. To the contrary, I 
believe that with greater EPA control, economic growth will 
suffer and we will be a poorer Nation as a result.
    Let us disabuse ourselves of the idea, if it is out there, 
that EPA controlling CO<INF>2</INF> will improve health 
outcomes in the U.S. Or elsewhere. I fear, based on outcomes of 
past EPA decisions, that greater EPA control over our lives and 
economy could indeed worsen our health outcomes and, most 
assuredly, worsen our economy.
    Thank you, and I welcome questions.
    Mr. Whitfield. Thanks, Dr. Roberts.
    [The prepared statement of Mr. Roberts follows:]

    [GRAPHIC] [TIFF OMITTED] T6704.113
    
    [GRAPHIC] [TIFF OMITTED] T6704.114
    
    [GRAPHIC] [TIFF OMITTED] T6704.115
    
    [GRAPHIC] [TIFF OMITTED] T6704.116
    
    [GRAPHIC] [TIFF OMITTED] T6704.117
    
    [GRAPHIC] [TIFF OMITTED] T6704.118
    
    [GRAPHIC] [TIFF OMITTED] T6704.119
    
    [GRAPHIC] [TIFF OMITTED] T6704.120
    
    [GRAPHIC] [TIFF OMITTED] T6704.121
    
    [GRAPHIC] [TIFF OMITTED] T6704.122
    
    [GRAPHIC] [TIFF OMITTED] T6704.123
    
    [GRAPHIC] [TIFF OMITTED] T6704.124
    
    [GRAPHIC] [TIFF OMITTED] T6704.125
    
    [GRAPHIC] [TIFF OMITTED] T6704.126
    
    [GRAPHIC] [TIFF OMITTED] T6704.127
    
    [GRAPHIC] [TIFF OMITTED] T6704.128
    
    [GRAPHIC] [TIFF OMITTED] T6704.129
    
    [GRAPHIC] [TIFF OMITTED] T6704.130
    
    [GRAPHIC] [TIFF OMITTED] T6704.131
    
    [GRAPHIC] [TIFF OMITTED] T6704.132
    
    [GRAPHIC] [TIFF OMITTED] T6704.133
    
    [GRAPHIC] [TIFF OMITTED] T6704.134
    
    [GRAPHIC] [TIFF OMITTED] T6704.135
    
    [GRAPHIC] [TIFF OMITTED] T6704.136
    
    [GRAPHIC] [TIFF OMITTED] T6704.137
    
    [GRAPHIC] [TIFF OMITTED] T6704.138
    
    [GRAPHIC] [TIFF OMITTED] T6704.139
    
    [GRAPHIC] [TIFF OMITTED] T6704.140
    
    [GRAPHIC] [TIFF OMITTED] T6704.141
    
    [GRAPHIC] [TIFF OMITTED] T6704.142
    
    [GRAPHIC] [TIFF OMITTED] T6704.143
    
    [GRAPHIC] [TIFF OMITTED] T6704.144
    
    [GRAPHIC] [TIFF OMITTED] T6704.145
    
    Mr. Whitfield. And thank all of you for your testimony. We 
appreciate your coming here and appreciate your remarks this 
morning.
    First question I would like to ask you is a raise of hands. 
How many of you have participated in some way and at some level 
with the International Panel on Climate Change? OK. So everyone 
except one has been involved in that. OK.
    Now, we find ourselves today in a situation where EPA is 
moving quickly on regulating greenhouse gases. So, in some 
ways, as far as their decision is concerned, the science is 
behind us. And I would just like to ask you, Dr. Christy, in 
your view, would EPA's regulations to control greenhouse gas 
emissions in the U.S. Have any real impact on the overall 
presence of greenhouse gases in the world?
    Mr. Christy. I have done several calculations in that 
regard, and the impact is minuscule to whatever--really both 
the greenhouse gas concentration total and really what the 
climate system might do as a result of that delta.
    Mr. Whitfield. So you would agree with Administrator 
Jackson? That is basically what she said as well.
    Mr. Christy. Yes.
    Mr. Whitfield. OK. Now, Dr. Roberts, I may have missed--
maybe I didn't hear you correctly, but did you say that there 
is no relationship between climate and public health?
    Mr. Roberts. Not precisely, but the fact is that the 
relationship between climate and public health is not going to 
go in a single direction. I think my fear that the feeling that 
climate change is a negative force for public health is flatly 
wrong. It is just wrong.
    Mr. Whitfield. A lot of the hearings we have had relating 
to these regulations, the new people at EPA say, oh, this is 
essential because we have got to cut back on asthma. We are 
exposing children and elderly people to all sorts of 
difficulties if we don't cut back on greenhouse gas emissions 
with these regulations. Do you believe that the proposed EPA 
regulations would appreciably impact public health in any way?
    Mr. Roberts. No, I do not.
    Mr. Whitfield. OK. Now, I am going to make just a comment 
here. Obviously, this whole issue has been politicized in a 
way--I mean, we have got science, we have got politics, we have 
got all sorts of things going on, and when you look at the 
events at the University of East Anglia, when you consider Dr. 
Lai on the 2007 IPCC who made the comment that the Himalayan 
glaciers would melt by the year 2035, which I think then he 
backed off of that and said, you know, I don't--that was a 
mistake, we are not--this is not accurate.
    I remember Dr. Landsea, who was an expert on hurricanes, 
served on a panel at the IPCC, in fact read the study on 
hurricanes, and he testified here that someone at the IPCC 
announced emphatically that more hurricanes were a direct cause 
of global warming. He was so upset about it, because he said 
the science is simply not there, that he resigned from IPCC. 
And we have heard other incidences of that.
    And I know that you can pick out isolated events in 
anything, but you hear this so frequently with IPCC, it is 
disserving in many ways. So just yes or no, on the IPCC in 
general, do you have confidence in what they are doing? Dr. 
Somerville.
    Mr. Somerville. I certainly do have confidence, very 
isolated instances.
    Mr. Whitfield. Dr. Christy?
    Mr. Christy. Yes and no.
    Mr. Whitfield. Yes, no, oK. Dr. Field?
    Mr. Field. Yes, I have confidence.
    Mr. Whitfield. Dr. Pielke?
    Mr. Pielke. No.
    Mr. Whitfield. Dr. Zwiers?
    Mr. Zwiers. Yes.
    Mr. Whitfield. Dr. Nadelhoffer?
    Mr. Nadelhoffer. As a reviewer of IPCC reports, I have 
confidence.
    Mr. Whitfield. OK. Do you have a comment, Dr. Roberts?
    Mr. Roberts. I do not have a confidence.
    Mr. Whitfield. I would also, Dr. Pielke, I don't know if I 
have all of the details on this, but the NOAA temperature 
monitoring stations--and I think I read some article that you 
all did an analysis and you found that 85 percent of these 
stations were unduly close to heat-generating areas--is that 
correct or is that not?
    Mr. Pielke. Well, we have a study that is almost through 
the review process that shows that many of the stations are 
very poorly located next to air conditioners, under satellite 
dishes, and we are showing that is contaminating the surface 
temperature record. In fact, it is introducing a warm bias over 
the United States.
    Mr. Whitfield. Thank you. I see my time has expired. So I 
recognize the gentleman from Illinois, Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman.
    And Dr. Nadelhoffer, I actually appreciate you being here. 
Explain to the subcommittee what the effects of climate change 
are on the economy and the environment of the Great Lakes 
region. You spoke something about--someone about that in the 
testimony. Would you like to expound upon it, please?
    Mr. Nadelhoffer. Well, thank you, Congressman Rush. I am 
not an economist. I can refer to several reports on the Great 
Lakes economy, one most recently by the Michigan sea grant 
program which identified large numbers of jobs depending on the 
waters themselves. But as I mentioned in my previous testimony, 
we in the Great Lakes region, in particular, are dependent upon 
natural resources. Many of those natural resources are provided 
by natural systems like forests, wetlands, and agricultural 
ecosystems. Our agricultural ecosystems are at great risk 
because of not only warming temperatures and summer droughts, 
spring rains, and floods, but also exceeding levels of heat 
tolerance of major crops like corn and soybeans, which, as you 
know from Illinois, are major to our agricultural economy. 
So...
    Mr. Rush. Well, you also reference drinking water. And the 
question is, if we should fail to limit greenhouse gas 
emissions, how will this affect the supply of drinking water to 
the millions of people who live in the Great Lakes region in 
Illinois, Michigan, Wisconsin, and Indiana?
    Mr. Nadelhoffer. Thank you for that question. It is a very 
complex and interesting question, but there are simple things 
and simple answers. One is, again, springtime floods which 
deliver large loads of waters to the large lakes with a lot of 
energy, carry sediments, pesticides, fertilizers, and nutrients 
into the water. These cause increases in production in the 
lakes, more algae growth, and are well associated with toxic 
algae blooms; that is, blooms of algae that actually produce 
toxins that harm people.
    They also contribute to dead zones, organic matter that 
falls to the bottom of the lakes and then is decomposed, 
consuming oxygen and thereby killing fish. These are happening 
now again on Lake Superior. They are likely the result of 
floods that deliver materials and nutrients to the lakes. So 
this increases our costs of water treatment.
    Also the flooding, when it comes early in the spring, 
carries more water off of the landscape, and there is less 
water available for percolating into aquifers and groundwater 
sources. So our groundwater sources paradoxically are at risk 
in the Great Lakes region.
    Mr. Rush. What will be the effect on the Great Lakes region 
if we do not curb emissions of greenhouse gases?
    Mr. Nadelhoffer. Part of that answer is in deference to our 
climate scientists who, again, I have reviewed IPCC reports. I 
am not an author, but I think the evidence is very clear that 
business as usual with respect to emissions will exacerbate the 
trends we have seen and therefore, I think, compromise not only 
our agricultural and forestry resources, but our water 
supplies.
    To the extent that future droughts, draw down of aquifers 
in the Great Plains creates needs for waters outside the basin, 
any policies in the futures which actually remove water from 
the Great Lakes could have dramatic effects on water levels. 
Right now, 1 percent of the volume of the Great Lakes leaves 
the Great Lakes annually in the Saint Lawrence Seaway, and the 
lake levels are relatively stable. They go up and down a meter 
or two, but they are relatively stable. If we start exporting 
large quantities to drought areas outside the basin, our water 
levels will more than likely decrease, decreasing supplies, as 
well as quality.
    Thank you.
    Mr. Rush. Dr. Somerville and Dr. Zwiers, with 95 percent of 
the world's scientists saying that climate change is man-made 
and can be rolled back, do you think that it is wise policy for 
Congress and the Federal Government to risk our family, our 
children, our grandchildren's future because a few holdovers 
are not really certain climate change does exist and can be 
avoided? Will you answer that?
    Mr. Somerville. I am glad to speak to that, Congressman 
Rush, and I harken back to Congressman Waxman's metaphors to 
the medical profession, that you don't go seeking the lone 
contrary doctor when you have received a serious diagnosis. Get 
a second opinion, but not 99 opinions, until you find one that 
you like.
    I think here the scientific evidence is overwhelming. I 
mean, if I could use another medical metaphor, sure, there is 
risk and costs to taking action, and there is--we also know for 
elective surgery, for example, as well as climate change, there 
are risks and costs to not taking action, too. And I think the 
balanced view here is that we have a strong case. We need 
international action. The U.S. Can lead. It cannot do the whole 
job, as you have heard, but I believe that the U.S. And China 
together contribute more than half of the global carbon dioxide 
emissions. If they could reach an accommodation in which they 
both took action, then I think that would be an enormous step 
forward.
    Mr. Whitfield. Gentleman from Texas, 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    Dr. Somerville, let me stay with you for just a moment. Is 
it your opinion that the United States Congress should pass 
legislation that increases the government's control over how 
much energy the American family uses or the type of energy that 
is used by American families?
    Mr. Somerville. Congressman, I am not an economist or a 
politician, and I would leave that decision to you. I think 
that in many other areas we see a variety of actions to promote 
things that are taken to be good and to discourage those things 
taken to be bad.
    Mr. Burgess. Let me ask you a question. I don't mean to 
interrupt, but my time is limited.
    In this committee just exactly 2 years ago, we had--little 
less than 2 years ago, we had legislation popularly known as 
the Waxman-Markey legislation. Are you familiar with that?
    Mr. Somerville. Yes.
    Mr. Burgess. And was it your opinion that that represented 
a balanced and reasonable approach to addressing the problem of 
climate change?
    Mr. Somerville. I think it is far better than doing 
nothing.
    Mr. Burgess. And are you aware that that bill had as its 
major premise to control the amount and type of energy used by 
American families?
    Mr. Somerville. I do understand that aspect of it, sir.
    Mr. Burgess. And do you understand there was no such 
control over families in India or China?
    Mr. Somerville. Of course, the U.S. Congress can't control 
India and China.
    Mr. Burgess. Exactly right. It is a global problem. And do 
you understand why the revulsion that the country had after 
that legislation was passed late at night on the floor of the 
United States House of Representatives, just prior to the 
Fourth of July recess in 2009, can you understand how Members 
of Congress went home to their districts and were actually 
reviled by their constituents for having done such an activity?
    Mr. Somerville. Congressman, I am going to have to stick to 
the science here.
    Mr. Burgess. Well, I will tell you, having been in those 
town halls and actually voting against the legislation, voting 
``no'' was not enough. People wanted us to stop that thing cold 
dead in its tracks, and they were not shy about telling us 
that.
    So, again, I reference my opening statement, some of the 
problems that we encountered here in this very committee room 
in 2008 when gasoline prices went to $4 a gallon.
    Now I remember after Hurricane Katrina we also had hearings 
in this very committee room, and gasoline went to $3 a gallon. 
We had hearings about that. Now the American public is kind of 
inured to $3 a gallon. It gets to $4 a gallon and it gets their 
attention again.
    But I remember a panel similar to this where I asked the 
question that you guys have to be pretty happy now with gas up 
at $3 a gallon--there is going to be less used. And the answer 
I got actually stunned me, and I don't remember the witness at 
the time, but he said, Actually, sir, you have to get it to $6 
a gallon before you are going to affect utilization.
    People hear statements like that, and it understandably 
scares them to death. And that is one of the reasons why it is 
so important for us to have a panel like this today. It is 
important for people to understand just exactly what it is we 
are talking about. We all talk in pear-shaped tones about 
controlling the climate and controlling carbon dioxide, but 
what we are really talking about is placing energy costs beyond 
the reach of the average middle-class American family.
    Dr. Christy, let me ask you a question. The memorandum that 
the minority has put out for this hearing explains that the 
state of the science is--climate change is occurring, it is 
caused largely by human activities, poses significant risks 
for, and in many cases is already affecting, a broad range of 
human and natural systems. Is that an accurate description of 
the state of the science as we know it now and, of course, 
man's role in the science?
    Mr. Christy. I think if I remember the comment right, they 
stated that humans were the cause or some major cause of it. 
Climate always changes. I mean, that is a fact. So the fact 
that climate is changing is not news to anyone, others here. 
But the notion that humans are causing most of it, that is 
purely a model-driven result that you cannot discount and 
cannot prove that natural enforced variability is causing this. 
We don't have thermometers that say this much warming was human 
cause and then this much warming was natural. We only have one 
thermometer. So you are trying to figure out how much might 
have been caused by human, and the fact that models fail so 
many times in the tests we do with the data sets that we build 
tell us they don't have the natural enforced variability level 
at all yet.
    Mr. Burgess. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Whitfield. The gentleman from California is recognized 
for 5 minutes.
    Mr. Waxman. Dr. Christy, is there warming going on 
globally?
    Mr. Christy. Yes, the average temperature, yes.
    Mr. Waxman. So there is a fact of warming?
    Mr. Christy. Yes.
    Mr. Waxman. OK. Now, Dr. Somerville, as I understand most 
people looking at this problem, they look at the fact of 
warming and they see climate change happening as a result. The 
mainstream consensus appears to be that it is primarily caused 
by humans.
    The widespread impacts are occurring now and expected to 
get worse. I am not a scientist, but my understanding is that 
there is a tremendous amount of data to support these 
conclusions, not just models but actual observations and 
measurement. Can you briefly describe the independent lines of 
evidence that support these scientific conclusions?
    Mr. Somerville. Yes, Congressman Waxman, I am glad to do 
that. I would like to say that a thread has been running 
through this hearing that disturbs me; that I think that it is 
wrong to frame this issue in terms of the evidence for human-
caused climate change hanging from some very slender chain of 
evidence that could be cut by one brilliant insightful paper. 
It is not a slender thread at all. It is a thick rope woven 
together of many, many chains of evidence, and there is a well-
developed branch of science and chapters in the IPCC report 
devoted to exactly this question of discerning unnatural 
climate change and attributing it to a cause. There are 
hundreds of papers cited in the report. It is very unlikely 
that they are going to be overturned by a single Einstein.
    You know, we have hard about the Einsteins and Copernicus 
and Galileos. They are rare. I think they deserve extreme 
scrutiny. A claim to upset conventional wisdom on the basis of 
a few papers which we have heard mention of today, I think 
deserves extremely strong scrutiny.
    Einstein was actually very quickly accepted by the physics 
community, won a Nobel prize. He wasn't the lone voice in the 
wilderness for very long. He was, of course, an isolated 
genius. Those geniuses are rare. Those people who claim that 
they are Galileo are just plain mistaken. In fact, I wonder, 
since the skeptics or contrarians tend not to agree with one 
another, which of them, if any, is going to turn out to upset 
the conventional wisdom here.
    I think it will require a very strong case to go against 
the IPCC. You know, the IPCC was established just to get around 
this cacophony of hearing many voices. There are outliers in 
any field of science. We have retrovirus experts who don't 
think that AIDS is caused by HIV.
    But the IPCC is not merely a consensus. I resent that 
characterization of it. The IPCC assesses the state of science. 
It says where the science is solid and relatively firm, where 
more research needs to be done, and it does take into account a 
wide range of views. I think the discussion of this has to 
begin with that and not with outliers.
    Mr. Waxman. What did you think of Dr. Christy's comment? I 
thought it was interesting. He said that if we are going to 
fund the IPCC--and of course, the Republicans have said, no, we 
shouldn't give them any money anymore--he suggested that we 
have a certain amount set aside for people who have contrary 
points of view. What do you think of that in terms of 
distribution of money to scientific research?
    Mr. Somerville. You have to start with the fact that the 
IPCC doesn't really have much money. It is a little 
organization with a skeleton staff in Geneva. It basically 
organizes scientists into writing these reports, and we serve 
without pay. It is our universities, our employers, who pay our 
salaries. We don't get a penny from the IPCC, and I think the 
IPCC does a very fine job of taking into account contrary 
opinions.
    You know, the stolen e-mails from the server in East Anglia 
have been mentioned in this hearing. People have to realize 
that those events have now been thoroughly investigated. The 
scientists have been exonerated. They are cleared. They did not 
commit fraud. They did not suppress publication of their 
opponents' views. They did not manipulate data, and in fact, 
the IPCC considered the very publications alleged. I think they 
do a fine job of considering other opinions.
    Mr. Waxman. I appreciate your comments. I just think it is 
quite amazing that scientific money for research ought to be 
distributed based on who has minority points of views and give 
them a certain amount of money. It seems to me it ought to be 
peer-reviewed and see what is the most promising research. 
Otherwise, I could see going into a pretty good business, 
always objecting to whatever the majority view is, and then 
getting my share of the allocations.
    Professor Field, in your testimony, you focused on the 
impacts of climate change in American agriculture and wildfires 
in the Western United States. What are the key impacts on 
future crop yield? What is it that you see happening in this 
area?
    Mr. Field. If we look at the observation, what we see in 
global agriculture a system that is very sensitive to warming. 
Based on farmer experiences, on models, there are a wide range 
of different mechanisms that kick in at different parts of the 
world. Some of the stresses are related to limited water 
availability. Some of the stresses are intrinsic to the crops. 
Some of the stresses have to do with outbreaks of disease and 
pathogens, and some have to do with complicated factors like 
when the farmers can get into the fields for different kinds of 
activities. The observations of the crops' sensitivity are 
based on summaries over all of these different processes, and 
that is one of the reasons that they are so robust.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Mr. Whitfield. Yes, sir. Mr. McKinley, you are recognized 
for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Dr. Roberts, let me start with you if I could, please, just 
to try to frame the argument a little bit here. We have been 
besieged now for the last 60 days on greenhouse gas questions, 
and we have apparently 15 million people unemployed in America. 
Probably an equal amount are underemployed or quit seeking 
work. We have 10.3 percent unemployed in West Virginia. Lisa 
Jackson was here just a few weeks ago and said that she feels 
that she has no obligation to take into consideration the 
economic impact of any of her decisions to the regulatory 
bodies.
    We have had others come before this group and say that 
there is no cost-effective way to handle the greenhouse gas 
emissions, not cost effective. Others have testified that 
higher energy costs are a result of the greenhouse gas 
emissions under the Clean Air Act. And others have talked about 
the high energy costs will cause economic malaise and deter the 
manufacturing expansion.
    So, since West Virginia is one of the leading producers of 
fossil fuel and so dependent on all this, with 150 million tons 
in the work that we do producing coal in West Virginia, what is 
the future? What is going to be the impact of all this 
testimony that we are hearing about the EPA overregulation of 
greenhouse gases on West Virginian jobs?
    Mr. Roberts. It will be a disaster.
    Mr. McKinley. Thank you. Dr. Pielke, do you agree with 
that?
    Mr. Pielke. That is really outside my area of expertise.
    Mr. McKinley. So you don't have an opinion of whether or 
not an attack on coal or war on coal is going to have an 
economic impact?
    Mr. Pielke. Well, I came to talk about the science, and 
that really is outside my area of expertise. I don't want to 
get into the politics of it. I just want to stick to the 
science.
    Mr. McKinley. Thank you. Dr. Christy
    Mr. Christy. As a State climatologist, I deal with a lot of 
economic development activity, and in my State, too, it would 
be a real problem. It would create more poverty than there is 
now, and I can tell you, as someone who has lived in Africa, 
without energy life is brutal and short.
    Mr. McKinley. Thank you. Do the three of you concur that 
has been--your predecessors that have come before the panel 
before have indicated to this group that the greenhouse gases 
are a precursor to Earth warming, global warming. Is that 
generally a consensus?
    Mr. Pielke. I think we have to realize that greenhouse gas 
increases are one component of the climate system. It is not 
the entire picture, and I think that is one of the failures of 
the IPCC to adequately take intoaccount these factors.
    Mr. McKinley. Dr. Pielke, we have had some come before us 
and say it is a precursor to global warming; you are going to 
see the emission of greenhouse gases is a precursor to global 
warming. But yet, from my reading, your paper, Landsea's, Hal 
Lewis', and others have indicated that what they are finding in 
Antarctica, the Russian scientists down there, that the reverse 
is true.
    Mr. Pielke. But it is unequivocal. I think that is the 
wrong argument, because we can see that CO<INF>2</INF> is 
increasing because of human activities. We know that. The 
problem is how does that fit into these other forcings--land 
use change, aerosols, the natural variability? And as we learn 
more about the climate system, it is more complex than we 
thought. And the IPCC, unfortunately, takes a very narrowed, 
limited view of how we are altering the climate system.
    So when we are talking about all these impacts about global 
warming, first of all, climate change is more than global 
warming; and secondly, even global warming and cooling is 
affected by more than just carbon dioxide. And we need to 
recognize that broader perspective and apparently the IPCC 
decided not to do that.
    Mr. McKinley. Dr. Roberts, would you like to amplify on 
that?
    Mr. Roberts. I am not sure that I have the expertise or 
background to add much to that, actually.
    Mr. Somerville. I would be glad to comment.
    Mr. McKinley. Sorry. Yield back my time. I am sorry, I 
missed something?
    Mr. Somerville. I just said I would be glad to comment on 
the issue you raised.
    Mr. McKinley. Go right ahead. I am sorry. I am hard of 
hearing. So if someone wanted to make a joke over that, that is 
their problem.
    Mr. Somerville. Sure. I am happy to clarify the issue of 
timing of carbon dioxide increases that you mentioned in the 
Antarctic ice coolers. We do know that the Ice Ages and 
transitions between Ice Ages and interglacial periods are paced 
by changes in the Earth's orbit around the Sun, but that after 
the pacing happens, then as a feedback carbon dioxide is added 
to the atmosphere, comes out of the ocean in a warming period, 
goes away out of the atmosphere, and a cooling period. So it is 
an amplifier. It adds probably 30 percent to the effect of the 
orbital forcing, but it is not a primary cause but it is an 
amplifying effect.
    Mr. McKinley. Thank you.
    Mr. Whitfield. Thank you. Mr. Inslee, you are recognized 
for 5 minutes.
    Mr. Inslee. Thank you. I want to thank all of you for being 
here today, but I have to express some degree of embarrassment 
that a Nation that went to the Moon, mapped the human genome, 
established the best software companies in the world, does now 
have one of its great parties adopt a chronic anti-science 
syndrome; one of its great parties that has decided to have an 
allergy to consensus science instead of respect for science and 
scientists. And that is embarrassing.
    In listening to this hearing, I am convinced that if we had 
Copernicus, Galileo, Newton, and Einstein at this table instead 
of you fine scientists, one of these parties would still not 
accept the clear science until the entire Antarctic ice sheet 
has melted or Hell has frozen over, whichever comes first. That 
is the situation that we are in today, and I think it is a 
pretty sad state of affairs.
    There is one point I want to make particularly, and I hope 
some who are covering this hearing might pay attention to this. 
There are seven people at the table. If this hearing is 
reported as saying four people said one thing and three people 
said another, you are missing the big story here, and I want to 
make sure everybody understands this.
    I want to put in the record a letter dated February 9 by 
1,800 doctors saying specifically that the health of United 
States' citizens is jeopardized by greenhouse gases, and I want 
to put this into the record.
    Mr. Whitfield. Without objection.
    Mr. Inslee. I want to put a statement by the CDC, the 
Centers for Disease Control and Prevention, which says 
specifically that climate change gases affect the health of 
human beings in America.
    Mr. Whitfield. Without objection.
    Mr. Inslee. Thank you, Mr. Chair. I want to put in the 
record a letter from 250 of the most esteemed climate 
scientists in the world urging us to act on this clear science 
of climate change dated May 7th, 2010.
    Mr. Whitfield. Without objection.
    Mr. Inslee. I want to put in the record a letter of 
February 2011 of 2,705 scientists basically urging us to allow 
the Environmental Protection Agency to do its job.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Inslee. Those are 4,560 scientists, and what I want to 
say, standing behind Dr. Field at his table are 4,560 
scientists. Now, the Republican Party has found two people to 
raise some questions, and of course, there are lots of 
questions about how fast this is going to go, and what it is 
going to do, but there is enormous scientific consensus on the 
Planet Earth about this fact that we have got a problem.
    Now, I want to ask a question on how fast we are going. Can 
we put up this slide, please, of the Arctic? I want to show an 
Arctic picture of the Arctic icecap. It shows 1979 the northern 
icecap on top. Then you see in September 2007, it shrunk by 
about 40 or 50 percent. The most recent science predicts it may 
be absolutely gone in any meaningful sense in the next 5 to 10 
years. I understand a few years ago we thought that wouldn't 
happen for 20 or 30 years.
    It appears to me like this is happening a lot faster than 
many of us thought was going to happen, and this is one of the 
things that are causing not fear, Dr. Roberts, but I think a 
rational concern that my 2-year-old grandson is going to grow 
up in a world that is really, really different than I grew up 
in, with no coral reefs and no Arctic icecap.
    Dr. Field, could you comment on what is the most recent 
science in that regard?.
    Mr. Field. The changes are occurring very rapidly. There is 
no question that changes in things like Arctic ice, in the 
positions of glaciers, in the ranges of species and in the 
water availability for the western U.S. Have changed 
dramatically.
    Now, the science tends to keep up with the new 
observations, and so I don't think it is accurate to say that 
the current scientific consensus is inconsistent with these 
observations, but I do think it is fair to say that as of a few 
years ago, most scientists were projecting that the kinds of 
events we are seeing now might occur in the second half of the 
century.
    Mr. Inslee. I read yesterday that the algae bloom in the 
Arctic is now 50 days earlier than it was. I read that the 
melting of the Greenland ice sheet seems to be much more 
significant than perhaps we even predicted 5 or 10 years ago. 
Many of these indices, to a layperson such as myself, would 
suggest that we are in the upper, sort of the redder zone of 
the parameters of what we have looked at. Is that a fair 
assessment or not? Dr. Somerville wants to say something.
    Mr. Somerville. Yes, that is very much a fair assessment, 
and the Greenland icecap is a good example. The IPCC has been 
cautious. It is not political at all, but it is intellectually 
conservative. It doesn't go beyond the data. It doesn't do 
hunches and conjectures. And it said in the last report that 
you could put a number on how much sea-level rise would happen 
from melting ice on land and thermal expansion of the ocean, 
but it said we don't yet know enough about what might happened 
to the Greenland and/or Arctic ice sheet. Now the newer science 
says, yes, there are positive contributions.
    Mr. Inslee. As one layperson, I had the oyster grocers of 
Washington State into my office last week. They are having 
trouble growing oysters in Puget Sound because of ocean 
acidification, which we haven't talked about. Carbon goes in 
the air, goes into the ocean, and makes it more acidic. My 
oyster growers are having problems today. My berry growers are 
having problems. This is not hypothetical. This is a problem 
today.
    Mr. Whitfield. Did you want to say something, Mr. Pielke?
    Mr. Pielke. Yes, I would. I think the observations are 
certainly correct that the Arctic ice has been diminishing and 
the result are effects we talked about. I think the question 
is, are there other explanations that haven't been fully 
explored in addition to carbon dioxide? And one of them is 
black carbon, which I think most of the members of the IPCC 
would have recognized. It has been better recognized recently. 
There is also natural circulation effects that have caused 
this.
    And I think that the proposal that Dr. Christy made that 
there needs to be an alternative view is analogous in the 
medical community to basically getting a second opinion. And if 
you had a medical drug developed by a company and that company 
is reporting on how well that drug does, you certainly would 
like to have an independent assessment of that, and I think 
that is what we need, and I think John's suggestion is a good 
one.
    Mr. Inslee. Mr. Chair, would you permit me one comment or 
follow-up question in light of Dr. Pielke's comment there?
    Mr. Whitfield. Yes, I will give you one follow-up question, 
and then we have to move on.
    Mr. Inslee. I appreciate your courtesy, Mr. Chair.
    The concern that I have, and I think many people, are that 
this is a profound geophysical change in the entire system of 
the Planet Earth to have this icecap disappear, and I am very 
concerned about black carbon. I actually have offered a bill to 
deal with black carbon. It is a problem.
    But I think it is a fair statement, as far as I can tell, 
is that no one in any peer-reviewed research that I can find 
have suggested such a rapid change in a fundamentally pivotal 
part of the climactic system, geophysical driver which the 
Arctic is, other than carbon. Has anybody come up with any 
other peer-reviewed hypothesis to say why this is happening? I 
am not aware of any.
    Mr. Whitfield. Maybe we will have a second round, but we 
have got a number who haven't had questions yet.
    Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    I want you all to know I am here today because I have lots 
of questions about the various things that are going on and 
what is happening, and so I am not sure I am going to get to 
answers. So, if we don't get to answers, if you all could 
submit those to the committee so I can review the information, 
that would be great.
    Let me also say that I am concerned that we are shifting 
jobs to other parts of the world where they are not going to 
pay attention to this. So, even if we believe that there is a 
problem and we shift all the jobs to someplace that is going to 
create actually more greenhouse gases, are we creating a 
solution or are we making the problem worse by having some of 
the EPA regulations?
    That being said, here are some of my questions. Has anybody 
studied what the temperatures were, or do we know what the 
temperatures were during the period in history known as the 
Great Optimum, which led to the rise of the Mesopotamian 
Egyptian cultures? That was a time in history of global 
warming. We know that. But how warm did it get? Obviously those 
were things that led to the rise of our earliest civilizations.
    At some point, I would like to have somebody look at the 
Lesser Optimum, which is a little closer in time, and how much 
did the temperature rise then? We know that that led to the 
Vikings--Professor Nadelhoffer--led to the Vikings dominating 
Europe for several hundreds years, and also led to where the 
icecap in the North is melting; we are now finding evidence of 
Viking habitation in those areas.
    Can somebody answer the question, and has the IPCC studied 
why are the icecaps on Mars melting? Both NASA and National 
Geographic have had reports on this. Is it, in fact, and has 
there been a study, a shift in the orbit of Mars, or is it that 
the Sun is putting out more radiant heat?
    If we have known, as you suggest, Dr. Somerville, for 150 
years the effects of greenhouse gases, then why 40 years ago, 
when I was in elementary and middle school, were we taught that 
an increase in greenhouse gas effect was going to lead to a new 
Ice Age?
    In regard to radiant heat, the Sun spot effects, what do we 
know about that? I was reading one report here that indicates 
that by 2020 we will reach a new peak on Sun spot activity, and 
this report actually suggests that the Earth's temperature may 
be raised by .5 degrees Centigrade as a result of the Sun spot 
activity. And could that also be the cause--when we were 
talking about patients earlier, somebody said why do you 
distrust the doctor? Then somebody made the comment, May we get 
a second opinion? I would like to know if we have looked at 
maybe the other patients? And Mars, having a similar global 
warming effect or event going on, have we studied what that is 
and has the IPCC done that?
    And then what is the optimum temperature for man? Have we 
looked at that? Dr. Somerville, you indicated that pre-1900 
industrialized world temperatures was where you wanted to go, 
but in light of the fact that we had a little Ice Age in the 
18th century, are you indicating that we want to return to the 
little Ice Age period? Or are you indicating something between 
1820 and 1900?
    I don't know the answer to that, and it was just kind of an 
interesting--these are questions that I, believe it or not, lay 
awake at night trying to figure out.
    I would like to actually hear from Dr. Christy and Dr. 
Pielke first, and then if we have time we can move on to the 
others. But I did anticipate there wouldn't be a lot of time 
for answers, which is why I started my comments by saying if 
you have got info, you know, feel free to get it to me and 
please give it to the committee as well.
    Mr. Christy. I think what you are describing is the fact 
that natural, unforced viability creates a large excursion of 
temperature that humans have no responsibility for. I didn't 
see up on the chart here after the Arctic sea ice, I didn't see 
the Antarctic sea ice which reached its maximum recorded 2 
weeks later after that particular picture was taken.
    I will be happy to answer those questions. That was a 
boatload of them, if we can have them in writing.
    [The information appears at the conclusion of the hearing.]
    Mr. Griffith. I would be happy to give you my notes. These 
are things I have been worrying about for some time and 
questions that--particularly the one about why we were taught 
there was a new Ice Age coming, if we have known about this 40 
years ago because all of my constituents were taught that. Now, 
maybe our books in southwest Virginia just weren't up to par 
and maybe they were 150 years out of date, but I doubt it.
    Mr. Pielke. Can I follow up?
    Mr. Griffith. Yes.
    Mr. Pielke. What you asked about Mesopotamia and the other 
regions, these are affected by regional temperatures, and I 
think this really highlights the global average surface 
temperature trend is a very poor metric to use to diagnose 
climate change. Even global warming is not properly diagnosed 
by that metric. So the question is, What was it like in 
Mesopotamia, what was it like in the Arctic, for example? Those 
are the questions we really need to focus on.
    Mr. Griffith. Thank you. I only have 11 seconds but you are 
welcome to them, Dr. Somerville.
    Mr. Somerville. I would like to respond. I wish I had time 
to respond to all of them.
    The 1970s global cooling is a myth, perpetrated by the 
popular media. It is in Newsweek magazine. It is not in the 
scientific literature, papered by Peterson, et al., Bulletin of 
American Meteorological Society establishes that----
    Mr. Griffith. Mr. Chairman, if I might, look, I was there. 
I studied it. Now maybe it is a myth. Maybe I am remembering a 
myth, but I was there. It was in my textbook. That is all I can 
say.
    Mr. Whitfield. I think we will just stipulate that there 
may be difference of opinions about that.
    Mr. Gardner, you are recognized for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you to the 
witnesses who have joined us this morning.
    And to my friend from Washington, I think I am going to get 
you a Kindle. I am a little concerned about that tower of books 
over there.
    Mr. Inslee. Would you like to read some? It might be 
helpful.
    Mr. Gardner. Only if you will read some of mine.
    Mr. Inslee. I would be happy because it is a lot shorter 
list.
    Mr. Gardner. Anyway, I wanted to just briefly touch base 
with Dr. Christy. We talked a little bit about agriculture in 
this committee hearing. In my view, farmers are really 
America's true environmentalists, people who work every day in 
the land, and if global warming really threatened to cause 
extreme weather, they would be the first in line to want to 
stop it because it threatened their livelihoods, or livelihoods 
are at stake.
    If the speculation is out there that warming reduces crop 
yields had any real-world validation, farmers would be on the 
front lines fighting for global warming regulations, 
encouraging the EPA to pass the regulations, encouraging 
Congress to pass the bill.
    But what the agriculture community has been saying is that 
global warming policies are far worse than global warming 
itself. The Farm Bureau opposes EPA's regulations for what they 
would do to energy and fertilizer costs for farmers. From an 
agricultural standpoint, is the cure worse than the disease?
    Mr. Christy. Oh, I think so. I was just on the farm 2 weeks 
ago, working with a farmer on something, and I am just 
surprised at my colleagues' comments here about how agriculture 
changes. We grow corn from North Dakota to Alabama. When it is 
warm in Alabama, we still get 240 bushels an acre for irrigated 
corn, a tremendous amount of corn.
    The temperature is not as critical when you know how to 
farm and deal with the variations that occur in their 
particular area. But I can assure you, because I talk to a lot 
of farmers and deal with them, that their fuel costs, their 
fertilizer costs, they are complaining a lot right now and just 
cannot bear to see those costs go up any more, which would 
happen if a price were put on carbon like that.
    Mr. Gardner. Thank you.
    Dr. Pielke, in your testimony, there is a 2009 paper you 
wrote and an excerpt in your testimony that says: Therefore, 
the cost-benefit analysis regarding the mitigation of 
CO<INF>2</INF> and other greenhouse gases need to be considered 
along with the other human climate forcings in a broader 
environmental context, as well as with respect to their role in 
a climate system.
    Do you feel that there hasn't been adequate cost-benefit 
analysis regarding the CO<INF>2</INF> regulations?
    Mr. Pielke. No. Actually, what we proposed is a bottom-up 
resource-faced focus where you basically take something like 
corn and asked what are the threats to that resource, of which 
climate is one of many but it is one of them, and what are the 
worse of the policies and the funding go to try to minimize 
those risks?
    Mr. Gardner. So you believe there hasn't been enough cost-
benefit analysis?
    Mr. Pielke. No, there has not been.
    Mr. Gardner. There has not been enough cost-benefit 
analysis.
    And to follow up on that, Dr. Pielke, EPA is moving quickly 
on a number of greenhouse gas and other regulations right now, 
and we have seen a chart that shows what is called the ``train 
wreck.'' Do you think it is a good idea to do all of what we 
are talking about, greenhouse gas regulations in the middle of 
a recession and what those effects could be?
    Mr. Pielke. Well, now you are asking me a political policy 
question. I will defer that because I want to focus on the 
science.
    Mr. Gardner. Dr. Christy?
    Mr. Christy. My mind might have been drifting there, but I 
think you were asking about----
    Mr. Gardner. Moving forward with these regulations in the 
middle of a recession, given what we have said, the lack of 
cost-benefit analysis.
    Mr. Christy. Well, I think moving forward, whether it is a 
recession or not, is going to make energy prices go up. In a 
State like mine, which is very poor, that is a big fraction of 
the people's expenditures and their own economy, so I would----
    Mr. Gardner. When those costs go up here, will it in turn 
then cause jobs to go overseas where there is little or no 
regulation?
    Mr. Christy. We have seen that. I have talked to particular 
industries that say we have already looked at Mexico and China, 
because if our energy costs go up, we are going to move, 
period.
    Mr. Gardner. You mentioned if we could build 1,000 nuclear 
plants, what was that statistic you used?
    Mr. Christy. Yes. If we could build 1,000 nuclear plants, 
which is not going to happen, 1.4 gigawatts each, that would be 
approximately 10 percent of the CO<INF>2</INF> emissions taken 
out of the mix, and that is not going to have much effect at 
all on climate.
    Mr. Gardner. Thank you, Mr. Chairman. Yield back my time.
    Mr. Whitfield. Thank you. At this time, I recognize the 
gentleman from Louisiana, Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate all of 
the panelists being with us today to talk about this issue, 
especially as it relates to broader efforts by the EPA to 
regulate greenhouse gases. We have had a number of hearings on 
not only the science in the past but also on economic impacts, 
and I would like to talk about both of those with you.
    Now, one thing we hear a lot by people on the other side is 
this concept that the science is settled--and I think when we 
go into past hearings that we have had on this, as well as 
today, I think it is clear that the science is not settled. 
There is, you know, these armies of thousands of scientists 
somewhere that hide behind these organizations that themselves 
have been discredited, but that try to in essence diminish 
countering views. And it should all come back to science. And I 
know, Dr. Pielke, you talked about this, too. Would you address 
this?
    Mr. Pielke. Yes. There is certainly not a consensus. In 
fact, let me give you an example.
    In 2005, a National Research Council report on expanding 
the radio forcing concept, was coauthored by a range of 
different people, including Michael Mann, for example, was on 
this committee, and he signed off on this report, or all of us 
did, in which we showed that there are these multiple other 
types of climate forcings. The IPCC basically ignored that 
report which was available to them.
    Mr. Scalise. Thank you.
    Dr. Somerville, in your opening statement you used terms 
like ``the great preponderance of experts agree.'' Later on, 
you say ``Nobody should be compressed by these discredited 
claims.'' Later on you used the comment, ``It is silly and just 
accepted and it will take a strong case to go against the 
IPCC.''
    Why is there this kind of elitest arrogant view to people 
that have a contrarian view in the scientific community to that 
that you hold?
    Mr. Somerville. I am certainly not trying to be elitist or 
arrogant, Congressman, and I regret it if you took that 
impression away.
    What I am saying is that obviously no science is firmly 
settled, so you don't get absolute 100 percent certainty from 
science. Everybody recognizes that. But some things are much 
more firmly known than others. I am not going to write a 
research proposal to the National Science Foundation to find 
out whether the Earth goes around the Sun. That is pretty 
firmly established.
    Mr. Scalise. And none of us dispute that. However, there is 
dispute over this claim that man is the cause of global 
warming.
    And let me ask Dr. Christy because, you know, kind of in 
contrast to some of the statements Dr. Somerville has made, I 
know you have been involved, I think, in some of the IPCC, some 
of the scandal that has been going on over there over the last 
year. Can you comment on this--this concept that the science is 
settled?
    Mr. Christy. Yes. I don't agree that it is at all, and I 
think Dr. Somerville's comments about being exonerated for 
these folks in the climate gate thing is just absolutely false, 
because that was not a legal test of anything. There was not 
admissible evidence. There was not cross-examination of the 
evidence. There was not due process and all those things, so 
those were not exoneration panels. Well, that is what they were 
is exoneration panels. They weren't science or investigative 
panels.
    Mr. Christy. Your original question was about why are there 
so many scientists that seem to look one way, or----
    Mr. Scalise. Yes, let me restate it a little bit. Because, 
you know, we have seen--and this has been a common trend over 
the last over a year, well over a year. You have people like Al 
Gore, ``The debate is over.'' They literally try to make 
somebody out to be a flat-earther if they just disagree in a 
scientific way. And, again----
    Mr. Christy. OK.
    Mr. Scalise [continuing]. Just this attempt to discredit 
scientists who pose scientific theories that counter their--in 
some cases, it is not even scientific theory. Al Gore is surely 
not a scientist; you are.
    But then you go to what happened in Climategate, where the 
IPCC--and they have used the hockey-stick graph to try to, 
again, say this is a settled science. And we saw in 
Climategate, they used a trick to hide the decline. This is 
something that really happened.
    And yet, it seems like people like you and Dr. Pielke and 
others who truly do go to the data--I think you have built 
models on data--they are trying to actually change our economy 
in the United States in a way that would run millions of jobs 
out of this country. We have already seen real evidence of 
that, by the way. The scientific evidence clearly is not 
settled on this issue, but we do know from testimony we have 
had about people who have said they have moved jobs to other 
countries.
    If you can maybe give me a summary of what carbon leakage 
means. For those companies that go and they will build a steel 
plant or they will build a refinery in another country that 
doesn't have the standards that we have today, where they will 
actually emit more carbon, what does that do to the global 
atmosphere, if they are concerned about carbon and you are 
actually emitting more carbon in another country because you 
have sent those jobs out of America instead of keeping them 
here?
    Mr. Christy. Yes, emissions will rise as a result of that 
kind of unintended consequence. Poverty will increase in a 
State like mine.
    In fact, I had this very conversation with a plant owner 
who said it is ironic that, with this legislative action, if it 
were to go forward--they were looking at Mexico, in fact--that 
they would emit four times more emissions if they were to move 
their operations, plus create a pocket of poverty that we don't 
need in our State that would make health concerns even worse 
for those folks.
    Mr. Scalise. I appreciate that. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Whitfield. Mr. Terry is recognized for 5 minutes.
    Mr. Terry. Thank you for that, Mr. Chairman.
    Dr. Nadelhoffer--did I pronounce that correctly? I got here 
a little late.
    Mr. Nadelhoffer. Yes, correctly enough. Thank you.
    Mr. Terry. Should nitrogen be banned? Should the EPA ban 
nitrogen?
    Mr. Nadelhoffer. The short answer is, no, the EPA could 
never ban nitrogen. It is----
    Mr. Terry. Why?
    Mr. Nadelhoffer [continuing]. The dominant gas in our 
atmosphere.
    Mr. Terry. All right. Man's use of nitrogen?
    Mr. Nadelhoffer. Again, the use of nitrogen as synthetic 
fertilizer has essentially allowed us to feed 8 billion, 9 
billion people on Earth. I don't think EPA is proposing to ban 
nitrogen fertilizer.
    Mr. Terry. I didn't--OK. How about you? Do you think we 
should?
    Mr. Nadelhoffer. No.
    Mr. Terry. OK. Just wanted to establish if we were allowed 
to eat anymore.
    Mr. Nadelhoffer. Oh, yes, we are.
    Mr. Terry. OK.
    It was interesting, it piqued my curiosity, Dr. Pielke; you 
had mentioned earlier in the discussion--and it is a real 
nuance here, but it is one that I think grasps at average, 
nonscientific citizens when they are trying to digest all of 
this global warming and man's role in it.
    You had said earlier, in an answer to a question, that 
man's role is a part of global warming, that there are many 
other attributes or causes, and it is difficult to, kind of, 
unwind man's cause. That is the ultimate issue here, because we 
can only control man's role within the borders of the United 
States of America.
    So I am curious, what are some of the other factors? Has 
there been scientific studies that would enable us to measure 
more accurately so we can have a more targeted solution here 
than simply trying to eliminate and go to a zero-carbon 
baseline from 1820?
    Mr. Pielke. Well, we have to recognize there are 
consequences whenever humans do anything. But what we have 
done--and there was that 2005 National Research Council report 
I referenced that talks about land-use change, talks about 
aerosols, talks about nitrogen deposition, for example, as well 
as carbon dioxide, both the biogeochemical and the radiative 
effect. And the more we learn about this, the more uncertain it 
becomes.
    And to try to factor out what is the CO<INF>2</INF> 
contribution to any of these impacts, whether it is floods or 
heat waves, is becoming an increasingly more difficult problem. 
And when we discuss just CO<INF>2</INF>, we focus just on C02, 
we are ignoring all these other influences and not even then 
considering what the natural part is.
    Mr. Terry. If the United States did go to an 1820 carbon 
baseline for man's emissions within the United States, has the 
scientific community concluded what globally the impact would 
be on global warming?
    Mr. Pielke. Well, in terms of the CO<INF>2</INF> emissions, 
I am sure that work has been done. And Chris can probably talk 
more about that.
    But in terms of man's impact, look at the land-use change 
that has occurred since 1820. And we have done quite a bit of 
research showing that that has a major effect on precipitation 
and on temperature and extreme weather. And this factor was 
inadequately assessed in the IPCC.
    So there are these other climate forcings in addition to 
CO<INF>2</INF> that really should be explored further, and they 
have not been, by the IPCC.
    Mr. Terry. Mr. Somerville, do you believe that farming 
contributes to global warming? Farming activities?
    Mr. Somerville. I think that there is certainly a 
contribution, a minor contribution.
    But I would like to reiterate, if I may, sir, that the 
overwhelming scientific consensus--that there is no doubt that 
land-use changes especially have an influence on the local 
climate. But when you talk about the global climate, the 
science community is not persuaded by the arguments you have 
heard today from----
    Mr. Terry. That there is additional contributions. Your 
belief is it is 100 percent caused by these activities.
    Mr. Somerville. No, it is not 100 percent at all, but it is 
the dominant contribution. IPCC said in their last report----
    Mr. Terry. All right.
    Mr. Somerville [continuing]. In this language that your 
government approved----
    Mr. Terry. Have you in your studies or your research been 
able to determine, if we went to an 1820 baseline for man's 
contribution of CO<INF>2</INF> in the United States, what 
impact that would have on global warming?
    Mr. Somerville. Congressman, by itself it would not solve 
the problem. We are not advocating anybody go back to the 
1820s. What is scary now----
    Mr. Terry. All right. 1880? 1900?
    Mr. Somerville. What is scary now is the rate of change of 
climate. We are not saying there was an ideal climate in some 
year in the past. What is frightening, what is something to be 
very concerned about is the rate at which the climate is 
changing now.
    Mr. Terry. And my time is up. And that is part of the 
problem here, is we can't get our mind around what we are 
supposed to be doing if there is really that great of a 
problem.
    Mr. Whitfield. OK. We appreciate you all coming from many 
long distances, and this is a very important subject.
    Do you all have any interest in doing one more round?
    Mr. Rush. Oh, absolutely, Mr. Chairman.
    Mr. Whitfield. All right. Five minutes each.
    All right. I will start off.
    As public-policymakers, I think the thing that concerns me, 
particularly, just like this--we have had 24 panels of 
witnesses on science. And every time basically there is an 
agreement there is warming, there is a disagreement on why it 
is.
    And we know that we have had warming periods in the past. 
We have had the Minoan warming period, the Roman warming 
period, the medieval warming period. And during that time, 
there was no industrialization, and so CO<INF>2</INF> carbon 
emissions were not as high as they are today. Why? We don't 
exactly know the answer. The ice in the Arctic is diminishing; 
the ice in the Antarctic is growing, for lack of a better word.
    So when we are asked to adopt policies unilaterally for 
America that would place us at a competitive disadvantage with 
other countries like China and India when jobs are at stake, 
when we have high unemployment, then it is a significant issue 
here.
    And this administration, through EPA, has made the decision 
that they are going to regulate greenhouse gases. So, as I have 
said before, on three different occasions Congress has said no. 
In 1990, they said no. In 1998, they said no. They rejected the 
cap-and-trade legislation the last time.
    So we can talk about consensus on global warming, fine. But 
consensus on why and the questions about the models, I don't 
think anyone, obviously, can say definitively, ``This is the 
answer.''
    So you all have been really helpful today. I really 
appreciate all of you coming. I know you are all scientists, 
you are well-educated. You are committed to trying to improve 
America and our world that we live in.
    So I just wanted to make that comment. And, at this point, 
I would recognize Mr. Rush for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. And I join you 
in thanking these panelists, all of them, who are making some 
significant contributions to this subcommittee.
    I want to get back to Dr. Nadelhoffer.
    Dr. Nadelhoffer, you spent 20-plus years in the Arctic. And 
there has been some testimony, I saw you squirming and biting 
at the bit because you wanted to jump in.
    So would you answer the question, what impact does climate 
change have for population centers globally? And referring to 
your experiences from the Arctic, what did you learn from your 
Arctic experiences?
    Mr. Nadelhoffer. Excuse me, Congressman Rush. Could you 
repeat the last part of the question? It was hard to hear.
    Mr. Rush. Yes, your experiences in the Arctic drew you to 
certain conclusions about the effect of climate change on 
population centers globally. Could you expound on your 
experience?
    Mr. Nadelhoffer. Well, the Arctic is a fragile environment. 
It is a cold environment, and temperature excursions change the 
Arctic in ways that we really are only learning are playing 
out. But, certainly, in many parts of the Arctic, permafrost is 
getting warmer, and in some places permafrost, which holds the 
ground firmly in place, is melting and diminishing. And so, 
many of our north Alaskan communities are compromised. Their 
building structures are sinking, often, into thawing 
permafrost.
    The climate system--interesting that we talked about 
Antarctica. The Antarctic ice sheet, of course, is a very 
complex system. But most of the glaciers that are measured in 
the Antarctic continent are increasing their flow rates into 
the Antarctic Ocean. And so, you know, it only makes sense that 
there may be more ice in the Antarctic Ocean because of the 
donation from the landscape.
    The Antarctic Peninsula, over the past 50 years, has 
increased more than any place on Earth of a comparable size. So 
there are indicators from the Antarctic region, as well.
    And, of course, these regions, one of the reasons that I 
and others work in the Arctic and my colleagues are working in 
the Antarctic is they are bellwethers. Those are the parts of 
the Earth that in the Arctic summer and the Antarctic summer 
face into the sun. The field station I work in in northern 
Alaska has sunlight continuously from May 20th to July 20th. 
And when there is less reflectivity from ice in the summer, 
there is more heat coming into the Earth's system in the 
summer.
    So the Arctic systems, although sparsely populated, feed 
back and affect the global climate in ways that I think others 
on the panel could express better than I can. But thank you 
very much for your question.
    Mr. Rush. Well, I have another question. Dr. Christy 
indicated that crop loss may be more contributed to farmers not 
really knowing what they are doing than the impacts of climate 
change. Do you have a response to this, his assertions?
    Mr. Nadelhoffer. Well, I have an indirect response. I, 
again, don't cover agricultural policy and farmer behavior and 
attitudes in my research.
    However, I think one of the things that climate change does 
for agriculture--or, one of the ways it impacts agriculture is 
to increase the uncertainty surrounding extreme events. I think 
farmers could well benefit from talking at high levels with 
climate scientists and trying to understand the risks involved 
with a more variable climate in agricultural regions.
    Mr. Rush. Dr. Field, would you respond to that question 
also?
    Mr. Field. Sure.
    I would like to congratulate John on knowing some very 
successful farmers.
    The observations are that, in warmer periods, crop yields 
go down. And with corn, it is very clear that there is a 
threshold of about 84 degrees Fahrenheit, and when the 
temperatures are higher than that, yields go down.
    The sensitivity of corn is quite dramatic. A single day 
with a temperature of 104, as opposed to 84, can decrease corn 
yields by about 7 percent.
    Mr. Rush. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Whitfield. The gentleman from Texas is recognized for 5 
minutes.
    Mr. Burgess. Dr. Christy, from your study of--and we have 
heard some talk today and some comparison to medicine and 
diagnosis and treatment. So what does the evidence say about 
how we are going about diagnosing this problem?
    Mr. Christy. Well, as someone who actually builds those 
data sets, what I find is that we have one standard of 
instrumentation that gives us some answers but there are really 
more answers to be found. We do need a better set of satellites 
going up. I can divert there for a second, but I won't.
    I will say----
    Mr. Burgess. Unfortunately, some of the satellites seem to 
be coming down, and that is a problem.
    Mr. Christy. Right. That is a problem.
    Someone mentioned about, there were 4,500 people behind Dr. 
Field here. And my point in my talk was that I have looked at 
the very evidence for this thing, a climate model. So those 
4,500 people, to make it simple, think the world is warming at 
0.26 degrees C per decade right now. That is what climate model 
theory, that is what greenhouse theory in these models 
indicates. The data set does not. Does that mean they are still 
right and I am wrong, or what is it?
    So I am not here to be a popular person. I hope I am 
providing the numbers of science that make this situation more 
understandable.
    Mr. Burgess. And you have put together these observational 
databases essentially from--you have built them on your own, 
you have built them from scratch?
    Mr. Christy. Yes, our group has built them and published 
them. They are in the literature.
    Mr. Burgess. Well, does the AIPCC or the National Academy 
of Sciences use your work?
    Mr. Christy. Sparingly.
    Mr. Burgess. Well, when they talk to you, what do they say 
is the justification for not including your work in the 
consensus?
    Mr. Christy. I think they would say, because we have so 
many people, we have to include everybody's work, and so you 
are just--you know, it is a democracy there, so you only get 
one vote. It doesn't matter how good the data are, it is one 
vote.
    Mr. Burgess. Well, what are your observations suggesting to 
you about the impact of carbon dioxide on global climate change 
or global warming?
    Mr. Christy. Yes, carbon dioxide is a greenhouse gas. There 
is no question about that. It will increase the surface 
temperature somewhat. But the effect is about one-third, the 
best we can figure, than what the current theory indicates, on 
which all these legislative actions are based.
    Mr. Burgess. Dr. Somerville, let me ask you a question. In 
your summation of your opening statement, which I appreciate 
you providing for us, item number 5, you state that, ``Science 
has its own high standards. It does not work by unqualified 
people making claims and expressing opinions on television or 
the Internet. People who are not experts, who are not trained 
and experienced in this field, who do not do research and 
publish it following standard scientific practice, are not 
doing science.''
    Does that statement apply to Dr. Christy?
    Mr. Somerville. No.
    Mr. Burgess. Well, let me ask you this. And I alluded to it 
earlier, the legislation that was before us in this committee 
late into the night on May 31st and then on the House floor 
late into the night on June 26. Why do you think it is--if the 
vast preponderance of science and scientists agree with you and 
your position, why haven't you closed the deal with the public?
    Mr. Somerville. That is a very good question. I think that 
we, as a science community, suffer as communicators. I think 
that we have not done a good job of outreach. The IPCC reports 
are hard to read. I think we haven't translated them into plain 
English.
    I think that some people who have done that translating 
aren't well enough recognized, and I would put the U.S. 
military in that category, sir. I highly recommend to this 
subcommittee a report called ``Climate Change and National 
Security'' by the CNA Corporation, which is composed of retired 
flags officers, generals, and admirals and so on, who reviewed 
this area, were briefed by climate scientists----
    Mr. Burgess. Yes.
    Mr. Somerville [continuing]. Said, it is a threat 
multiplier, it is a national security concern----
    Mr. Burgess. Let me just----
    Mr. Somerville [continuing]. We don't wait for perfect 
information before----
    Mr. Burgess. Let me just reclaim my time. It obviously 
doesn't take a rocket scientist, or a rocket surgeon for that 
matter, to know that Members of Congress are not held in very 
high regard right now, so anything we say is certainly suspect. 
The military is held in very high regard.
    Mr. Somerville. Right.
    Mr. Burgess. So why--again, I would pose my question to 
you--why have you not closed the deal with the public? Why, 
when I go home to my district and have my town-halls, why is 
the public not clamoring for me to control carbon in the 
atmosphere and drive up energy prices?
    Mr. Somerville. I think there are many reasons for that. 
There is an active disinformation campaign out there, as you 
may know----
    Mr. Burgess. Who are you accusing of the active 
disinformation campaign?
    Mr. Somerville. I am accusing parts of the fossil fuel 
industry and certain think-tanks and political centers. There 
is a lot of misinformation out there, and we haven't done as 
good a job as we need to to counteract it, sir.
    Mr. Burgess. Mr. Chairman, if I could, just a point of 
personal privilege. I really appreciate Mr. Inslee bringing his 
own brand of carbon sequestration to the committee. It is an 
interesting tower he has constructed there.
    Thank you.
    Mr. Whitfield. Thank you.
    Mr. Waxman, you are recognized for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    This panel was invited to give us information about the 
scientific record. I don't think that it would be fair to ask 
any of you to tell us exactly how to solve the problem. There 
are a lot of different alternatives, and we could explore those 
alternatives if we think something needs to be done.
    I think there is a moral imperative to address climate 
change because of the damaging consequences that appear to be 
occurring. We don't have an abstract concern about how many 
parts per million of carbon dioxide are in the atmosphere. We 
are worried about extreme weather events, the reduced crop 
yields, the wildfires, the floods, the rising sea level, and 
the rest of a long list of impacts.
    And when analyzing the costs of acting to address climate 
change, it would be irresponsible to ignore the costs of 
inaction. But this isn't the panel to ask about what costs we 
ought to spend on acting and what are the consequences of 
inacting, except on the level of science.
    Professor Field, let me just go back to this point. Earlier 
you said that corn, soybean, and cotton yields are very 
sensitive to increased temperatures. What effect does a very 
high-temperature day have on corn yields? How much are corn, 
soybean, and cotton yields in the U.S. expected to decline as a 
result of climate change? For example, if you have a single day 
of 104 degrees temperature, instead of 84 degrees, what would 
be the impact on corn? And what would be a modest warming 
impact?
    Mr. Field. Currently, the best science came out in a 2010 
report of the National Research Council. And what it concluded 
is that we should expect, in the absence of other activities, 
to see U.S. crop yields drop by something on the order of 5 to 
10 percent for each degree Fahrenheit of warming.
    We may be able to do technological fixes that avoid some of 
those changes. But I think that the best way to understand the 
climate change is, it is like an anchor that we are trying to 
drag as we advance agricultural technology through improved 
breeding and improved practices.
    Mr. Waxman. Now, if a single day of 104 degrees temperature 
instead of 84 reduces corn yields by 7 percent--is that 
accurate?
    Mr. Field. Yes.
    Mr. Waxman. Even modest warming over this century is 
expected to reduce corn, soybean, and cotton yields by 30 to 46 
percent. Is that an accurate statement?
    Mr. Field. That is as well.
    Mr. Waxman. And so, if we had a severe warming, that could 
reduce 63 to 82 percent.
    Mr. Field. Yes.
    Mr. Waxman. Now, maybe the farmers don't know about it; 
they are not clamoring for any legislation on the subject. But 
I could easily imagine they not knowing about it because they 
are not doing this research that you are doing.
    Mr. Field. The new information is really quite striking. 
What it demonstrates is that, for major food crops in the U.S. 
and for cotton, there is very little temperature sensitivity 
until you reach a threshold. After you reach a threshold 
temperature--I indicated that it is 82 for corn, 84 for 
soybeans, and about 90 for cotton--you will begin to drop 
rapidly. And that is why people aren't generally aware of the 
sensitivities.
    Mr. Waxman. Now, some of our Members represent districts in 
the western United States. Have the frequency and duration of 
western wildfires been affected by these increasing 
temperatures?
    Mr. Field. Since the middle of the 1980s, we have seen a 
dramatic increase in the area burned, in the average length of 
fires, and in the length of fire season across the western U.S.
    Mr. Waxman. And these are already happening?
    Mr. Field. Yes.
    Mr. Waxman. What can we expect as temperatures continue to 
rise?
    Mr. Field. The best estimates, based on observations, not 
based on any kind of a simulation, is that a warming of about 
1.8, more or less the same amount of warming that the U.S. has 
seen over the last century, would increase the annual area 
consumed in wildfires in the western U.S. From about 1.3 
million acres a year to about 4.5 million acres per year, a 
more than threefold increase as a consequence of a very modest 
warming, more or less the amount of warming we have already 
seen.
    Mr. Waxman. And, Professor Nadelhoffer, what climate change 
impacts can we expect to crop yields in the Midwest?
    Mr. Nadelhoffer. Well, I don't have a percentage number, 
but we are seeing higher frequencies of high-heat events. And 
to the extent that those high-heat events exceed the critical 
thresholds beyond which crop yields decline qualitatively, I 
can say that it would damage agriculture in the U.S.
    Mr. Waxman. Is it possible that soybean yields could 
decline in Illinois by as much as 55 percent by the end of the 
century?
    Mr. Nadelhoffer. I would not rule that out.
    Mr. Waxman. And weed-induced losses for corn could increase 
22 percent in the Great Lakes States and 35 percent for 
soybeans?
    Mr. Nadelhoffer. That is within the realm of possibility.
    Mr. Waxman. Well, I want to end, Mr. Chairman, by saying 
that we have heard a lot of reasons from Members of Congress 
why people are afraid to do anything. But for us to do nothing, 
for the rest of the world to do nothing, there is a cost of 
inaction. And we ought to recognize that fact and try to figure 
out what can we do to make things better.
    If we don't want something major, let's do something 
modest. But let's don't just put our heads in the sand and say, 
``We heard there is no problem from some scientists and some 
people that seem to be reputable, and therefore we are not 
going to do anything. Let's let the problem get worse.'' I 
don't think that is a responsible position.
    I yield back my time.
    Mr. Whitfield. Thank you.
    Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Let me reiterate something that I mentioned previously. As 
you know, I was on a rapid-fire because I thought I was only 
going to get 5 minutes and I wanted to get all my questions out 
there. And I do ask you all to please get me answers, and we 
will get the questions in writing to you and so forth.
    But one of my great concerns in this whole debate is that 
we shift our jobs and our wealth to other countries--Asia, 
Mexico--other countries that are not doing what we are doing. 
If it turns out that those of you who believe that it is all 
manmade greenhouse gases and manmade effect, I worry that we 
have crippled ourselves to respond to it later when other 
countries want to do something about it because we won't have 
the money. We will be a second-tier nation at that point, and 
that is a great concern of mine.
    And I think we should have, you know, reasonable rules and 
regulations, but I want to make sure that we are doing it in a 
reasonable fashion. And I am not sure that unilaterally 
stopping the use of carbon fuels does this country or the world 
any great favors.
    That being said, I was interested in the comments by you, 
Dr. Christy, in regard to land use. And I am wondering if you 
can amplify that, as to how that is affecting global warming 
and what we might be able to do. You know, is one of the 
concerns deforestation? Are we worried about the peat bogs? I 
heard permafrost mentioned. I am just wondering if you could 
amplify on that.
    Mr. Christy. I will just talk about the fact that, when you 
look at surface temperature measurements, like I saw a chart up 
there earlier, we have shown how that is contaminated by the 
fact that it uses nighttime temperatures, which are a clear 
signal and affected by surface development of all kinds. It is 
a really complicated problem that we published on.
    But there is clearly a warming component that is very large 
in that surface-temperature record over land that is not due to 
greenhouse gases at all, but it is due to humans. It is due to 
surface development. And so, I made the comment one time that 
if you turn California back into a desert, you will see the 
temperature fall, simply because of this effect. I don't 
recommend it, but.
    Mr. Griffith. Yes, I am not in favor of that either.
    But what other--you said turn California, you know, back. 
What other things would we have to turn back to get back to 
temperatures pre-industrialization in the 19th century--or, 
excuse me, in the 1900s?
    Mr. Christy. It would be to go back to what it was like in 
the 18th century.
    Mr. Griffith. All right.
    And then, Dr. Fields, I have been very interested in--and 
you may not have it here today, but I have been very interested 
in--and let me see if I have this right--90 degrees for cotton, 
82 for corn, 84 for soybeans? Did I get that correct? Can you 
give me the same number on barley, wheat, oats, millet, rice, 
et cetera?
    Mr. Field. I can't give you the specific numbers because 
the analysis for barley, we have only been able to do it with a 
global scale. And with barley, the sensitivity is about 5 
percent yield loss per degree Fahrenheit of temperature 
increase.
    Mr. Griffith. But do you know the number for barley?
    Mr. Field. I don't know if there is a threshold for barley.
    Mr. Griffith. OK. And how about wheat, oats, millet, rice? 
Just picking up some of the other grains.
    Mr. Field. Right. So, the only grains for which--the only 
crops for which we have been able to identify the threshold 
temperatures are corn, soybean, and cotton. For the others, we 
can detect the sensitivity to warming and we can detect the 
fact that historical warming has put this anchor on yields. But 
as far as we can tell, we are in a part of the temperature 
range that is already responsive, where we are already seeing 
the yield decreases.
    Mr. Griffith. OK. Now, let me ask this, because, as 
Congressman Waxman pointed out, we want to deal with science 
here today, and that is what I am trying to do. I have all 
kinds of questions.
    Do we not know the other grains because we haven't studied 
them or we have not yet reached their threshold?
    Mr. Field. Well, we have reached the threshold. What we are 
seeing at the global scale is that there are already yield 
decreases with historical warming for wheat, maize, corn, and 
barley. What I said is that there is no evidence from the 
observations that there is a threshold. We are already in the 
responsive part of the system for wheat, barley, and corn.
    Mr. Griffith. OK. Has there been a study on oats?
    Mr. Field. No.
    Mr. Griffith. So we have lack of science there.
    Mr. Field. As far as I am aware, on oats.
    Mr. Griffith. OK. And the same would be true for millet and 
rice?
    Mr. Field. In the study of the world's six major food 
crops, we do not see that rice is decreasing yields in response 
to the warming that has already occurred.
    Mr. Griffith. All right. Thank you very much.
    Mr. Whitfield. Thank you.
    Mr. Inslee, you are recognized for 5 minutes.
    Mr. Inslee. Thank you.
    Dr. Somerville, I would like to suggest that you have been 
way too self-critical on the scientific community about why 
there is some remaining uncertainty in the public's mind about 
this. And I want to suggest that the reason there is some 
uncertainty is there has been a concerted war on science on 
this subject, just like there was in the tobacco debate.
    This is a movie we have seen before. When the devastating 
evidence with a scientific consensus came out that tobacco 
killed Americans, there was a very concerted effort to distort 
and attack that science. It lasted for decades until it was 
finally overwhelmed.
    And it was in part because there were people with enormous 
financial stakes that attacked that science, and it was in part 
and is part today--and here is another reason for it, and I 
will suggest it. Maybe it is controversial, but I will suggest 
it. Folks in the press report this like a divorce trial: He 
said, she said, then she said, then he said. That is not the 
way science ought to be reported in this country.
    And if people start reporting that this mountain of 
evidence--by the way, this is just a partial list of the 
scientific documents on this. These things could reach to the 
ceiling. And there isn't one, single peer-reviewed paper in the 
world that supports a hypothesis about why the Arctic is 
melting other than this phenomena. And we need people in the 
press to start reporting that, frankly, so that Americans can 
make rational decisions.
    Now, I want to bring in the parameters of what our real 
scientific discussion here is, because there is uncertainty 
about this, obviously, about how fast this is going to go and 
what the temperature ranges will be.
    But I want to ask Dr. Christy, there was a lawsuit up in 
Vermont, and a judge quoted an expert who testified on behalf 
of the plaintiff. And he quoted this--I will call him Dr. X for 
the moment. I will quote from the judge's opinion.
    Quote, ``Plaintiff's own expert, Dr. X, agrees with the 
IPCC's assessment that, in light of new evidence and taking 
into account remaining uncertainties, most of the observed 
warming over the last 50 years is likely to have been due to 
the increase in GHG concentrations. Christy''--excuse me, I 
gave it away--``Dr. X agrees that the increase in carbon 
dioxide is real and primarily due to the burning of fossil 
fuels, which changes the radiated balance of the atmosphere and 
has an impact on the planet's surface temperature toward a 
warming rate.''
    Now, I gave away who Dr. X was. I just want to make clear, 
Dr. Christy, you agree, do you not, that human emissions of 
some of these pollutant gases is playing at least some role in 
changes in our climate? Now, if you could just say ``yes'' or 
``no'' to that, I would really appreciate it.
    Mr. Christy. The question was a little confused there. Was 
it the pollution----
    Mr. Inslee. Let me just ask you if you agree with the 
statement you gave up in a court in Vermont. You said you----
    Mr. Christy. No, the judge got the statement wrong.
    Mr. Inslee. Oh, I see. The judge did it.
    Mr. Christy. I did not say that. Go back to the transcript, 
and that is the problem.
    Mr. Inslee. Well, let me just ask you this. Do you agree 
with the IPC's conclusion, assessment, that, in light of new 
evidence and taking into account the remaining uncertainties, 
most of the observed warming over the last 6 years is likely to 
have been due to the increase in GHG concentrations, testimony 
by you on May 4th, 2007? Do you agree with that or disagree 
with that?
    Mr. Christy. What I said on the transcript was I mostly 
agreed with that. I did not say I agreed with it. And if they 
just changed one word, I would agree with that, instead of 
``most'' to ``some.''
    Mr. Inslee. Let's show the picture of the Arctic up here 
again, if we can. If we can put the picture of the Arctic up 
here.
    Now, what we have observed, due to satellite data and 
observations on the surface, is incontrovertible. A massive 
part of the Earth has changed. I don't know how many thousands 
of square miles are on there, but this is a bunch. And we have 
seen a 40 to 50 percent reduction in volume of the Arctic Sea 
ice in September in the last couple of decades. If current 
trends continue, there will be virtually no Arctic ice in 
September probably within this decade, perhaps within 5 or 6 
years.
    Now, what I am told is, this is a very significant change 
in the planet because of the albedo effect. And perhaps, Dr. 
Field, could you describe to us what that is and why this is 
important to us?
    Mr. Field. Thank you.
    Sea ice reflects about 90 percent of the sunlight that hits 
it. Seawater absorbs about 90 percent of the sunlight that hits 
it. That is a big difference in the amount of heat that is 
reflected back to space versus absorbed in the Earth's system. 
Sea ice tends to cool the planet. Open water tends to warm the 
planet.
    Mr. Inslee. Now, this appears to me to be a very dramatic 
change in the world that we have known since humans walked the 
planet. This has never existed before while humans were on the 
planet Earth.
    Has anyone produced a peer-reviewed article to suggest a 
hypothesis as to why this has happened in the Arctic other than 
the accumulation of greenhouse gases and associated effects? 
Has anyone published a peer-reviewed article suggesting another 
hypothesis?
    And I am not seeing any takers, because there are none.
    Mr. Pielke. Excuse me. If you are asking a question, that 
2005 NRC report talks about the black carbon. And there is also 
the issue of natural circulation----
    Mr. Inslee. Black carbon is something associated with 
burning our fossil fuels. And that----
    Mr. Pielke. I understand, but----
    Mr. Inslee [continuing]. Is another problem we have to 
get----
    Mr. Pielke [continuing]. It is not a greenhouse gas.
    Mr. Inslee. Well, it is good enough to melt the Arctic. And 
it is one of the reasons why the EPA should not be stopped from 
enforcing the Clean Air Act, like the Republicans want to do. 
And we are going to stop it.
    Mr. Whitfield. The gentleman's time has expired.
    You know, there was some nodding going on here when we 
talked about there is not one peer-reviewed article relating to 
the Arctic diminishing of ice. Are any of you aware of any 
peer-reviewed articles that----
    Mr. Christy. There are articles that talk about the 
circulation being a dominant component of why that is missing 
up there. If you go back several--a few thousand years, not 
several, just a few thousand years, there were times when it 
was probably completely free of ice. This is not a new 
situation.
    And I agree with you that there is no question the Arctic 
ice has diminished in the past 20 years. Antarctic sea ice has 
increased. And it has a greater albedo effect, by the way, than 
the Arctic does. And I think Roger knows something about that.
    Mr. Whitfield. The gentleman from Louisiana is recognized 
for 5 minutes.
    Mr. Scalise. Thank you again, Mr. Chairman, for the second 
round.
    And, obviously, I think we are seeing some more very 
interesting, kind of, divergent views. But, in some ways, it is 
not really divergent. We are really starting to see more of the 
details that seem to be excluded too often in other reports, 
when some people want to issue a report just to prove what they 
are trying to accomplish, as opposed to following the data.
    And I want to ask you about this, Dr. Pielke, because you 
refer to the Climate Change Science Program's report. And I 
think you had done an analysis of it, maybe with some other 
doctors, I would like to ask you to comment on.
    But in a few parts of your statement, you talk about, ``The 
process for completing the CCSP report excluded valid 
scientific perspectives.'' You talk about, ``The editor of the 
report systemically excluded a range of views on the issue of 
understanding and reconciling lower atmospheric temperature 
trends.'' Later on, you mentioned that, ``The executive summary 
of the CCSP report ignores critical scientific issues and makes 
unbalanced conclusions concerning our current understanding of 
temperature trends.''
    All of you are scientists, and, respectably, you can 
disagree with each other if you are trying to come to a 
conclusion. But if you are going to issue a report and 
deliberately exclude certain things because maybe they don't 
reach the same conclusion that you are trying to reach, that is 
not science.
    And I think, Dr. Pielke, what you are talking about here--
and you reviewed this--is getting to the heart of that very 
concern many of us have, that there are people running around 
out there talking about ``thousands of scientists'' out there 
and trying to discredit anybody who comes out against it, when, 
in fact, some of these reports exclude key data, and then the 
thousands of scientists are basing their assumptions on the 
report that, in itself, is factually inaccurate because it 
excluded key data.
    So if you can talk to me about maybe specifically the CCSP 
report and what was excluded. And in the broader picture, are 
there other scientists like you that have reviewed these kinds 
of reports and said, ``Wait a minute, they are leaving out key 
data''?
    Mr. Pielke. Exactly, they certainly are. And in the CCPS 
report, I documented it for others in a series of e-mail 
exchanges that I had that is actually on my Web log. What you 
quoted was out of a public comment that I responded to. And an 
outgrowth of that was that we published several papers with 
many authors in the peer-reviewed literature that showed 
unresolved issues with the surface-temperature record. I am not 
going to go through them here, obviously, but one of them is 
how good is the siting of these sites; what height do they 
measure the temperatures at.
    They deliberately excluded this, and they wanted to assume 
that this surface-temperature record is robust and they don't 
need to look at it any further. And on the CCSP report, we 
raise issues. They were excluded. And then I finally resigned 
it to the public comment. And since then we have published 
papers on it and have documented that there are serious issues 
with the use of that metric to diagnose global warming.
    Mr. Scalise. And, again, this should be based on the data. 
If the data backs it up, that is one thing. But then there are 
people running around using these reports that, in and of 
themselves, are corrupt because they specifically excluded 
key--this data.
    Mr. Pielke. As you know, the CCSP was used in preparation 
of the 2007 IPCC report. And I also documented peer-reviewed 
papers that were excluded from that report that showed an 
alternative perspective than what was presented in the report 
on that issue.
    Mr. Scalise. Thank you.
    And let me ask you, Dr. Christy, because you talk about 
this in a similar way. You talk about, ``Widely publicized 
consensus reports by thousands of scientists are 
misrepresentative and contain overstated confidence in their 
assertions, rarely representing the range of scientific opinion 
that attends a relatively murky field of climate science.''
    Can you expand upon that, following a similar line of 
questioning that I had with Dr. Pielke?
    Mr. Christy. Well, fundamentally, only a few people can 
write the report. Thousands of people don't write the report. 
Thousands of people don't approve of everything in the report. 
And so it really comes down to those few who are, as I call 
them, they are gatekeepers of the information rather than 
brokers of the information.
    This is the information I presented to the InterAcademy 
Council last summer that they pretty much took to heart. And 
how do you get out of that? That was one of the things I was 
trying to----
    Mr. Scalise. Let me ask you this, because we have heard 
this in previous testimony before this committee. Some 
scientists--who, as you, Dr. Pielke, and others have maybe 
pointed out some inaccuracies or data that is left out, other 
things--they talk about blacklisting that goes on inside the 
scientific community. I don't know if you want to comment on 
it. But, I mean, what kind of reaction do you get from 
scientists when you do point out these things that are not 
necessarily reflective of the full picture?
    Mr. Christy. They are hard pressed to deal with the 
numbers, because all science is numbers, and that is really 
what we have. But----
    Mr. Scalise. And you have built your own data models, so I 
take it--and I looked at what you reviewed on the Sierra Nevada 
mountains, some other things you found in the United States and 
Africa in terms of temperature, and the complexities, when you 
get into what really causes it. It is one thing to show that 
you have a temperature change over thousands of years. You have 
seen that up and down throughout history. What causes it, I 
guess, is at the heart of the issue here, and the complexities 
of that.
    So if you can make one final comment there.
    Mr. Christy. Well, I would just say, kind of, the thrust of 
your question, if someone would read the Climategate e-mails, 
and as someone who was denigrated in those e-mails, I have a 
completely different view about them than Dr. Somerville might.
    Mr. Scalise. Thank you.
    And, Mr. Chairman, if I may, just one last thing. Today is 
Mardi Gras day. I just flew in from New Orleans this morning to 
be at this panel, so I couldn't be at the parade. But, as we 
are talking about icing and agriculture, I have got a king cake 
back in the back. So if members of the committee on either side 
would like to come back, we have some good king cake from New 
Orleans with icing on top----
    Mr. Whitfield. How big is it?
    Mr. Scalise [continuing]. And I would invite you all to 
have some of that.
    Mr. Whitfield. Is it big?
    Mr. Scalise. It is--and, by the way, your good friend 
Herschel Abbott is the king of Mardis Gras today.
    Mr. Whitfield. All right.
    Mr. Scalise. So, a beautiful day back in New Orleans. Wish 
I could be there, but glad to be here. And I yield back.
    Mr. Whitfield. That concludes today's hearing. I want to 
thank----
    Mr. Rush. Mr. Chairman?
    Mr. Whitfield. Yes?
    Mr. Rush. Mr. Chairman, I have a unanimous consent request 
for some reports to be entered into the record, if I might. A 
very extensive----
    Mr. Whitfield. How big is this report?
    Mr. Rush. There are a number of reports. But I would like 
to have them entered into the record.
    Mr. Whitfield. Well, yes. And we will enter some in the 
record, too, then. All right, go ahead.
    Mr. Rush. Mr. Chairman, the first report is a 2009 report 
entitled, ``Global Climate Change Impacts in the United 
States.'' And this study was conducted on behalf of the 
National Science and Technology Council and the U.S. Global 
Change Research Program and was transmitted to the Bush White 
House and the Congress in June 2009. The report summarizes the 
science of climate change----
    Mr. Whitfield. How many pages is that?
    Mr. Rush. I think it is about 170, 180 pages.
    Mr. Whitfield. OK.
    Mr. Rush. And I will quote just one part of it. It says, 
``Observations show that warming of the climate is unequivocal. 
The global warming observed over the past 50 years is due 
primarily to human-induced emissions.''
    Mr. Whitfield. Mr. Rush, I mean, if you would read the 
title, we would be happy to submit them.
    Mr. Rush. All right. Well, then this study is a 2007 study 
entitled, ``The U.S. Economic Impacts of Climate Change and the 
Costs of Inaction,'' and it is a review and assessment by the 
Center for Integrative Environmental Research at the University 
of Maryland.
    The third is a statement from the board of directors of the 
American Association for the Advancement of Science, the 
world's largest general scientific society, which serves 262 
affiliated societies and academies of science and 10 million 
individuals.
    The other is a statement by 18 scientific societies, 
including the American Association for the Advancement of 
Science, representing an assessment of the science.
    The other one is a letter on behalf of 152 researchers from 
universities, colleges, and research institutes across the 
State of Michigan strongly urging members of the Michigan 
congressional delegation to reject any measure that will block 
or delay the EPA from protecting the people of Michigan from 
air pollution and human-caused climate change, which endangers 
the public agriculture and the environment and the economy.
    The next is a letter on behalf of scientists and colleges 
and universities across the State of Wisconsin urging the 
Wisconsin congressional delegation to support strong Federal 
policies for rapid and deep reductions in emissions of carbon 
dioxide and other greenhouse gases at least on par with the 
reductions recommended by the Intergovernmental Panel on 
Climate Change.
    And the last report, Mr. Chairman, is the report that I 
heard about today, along with the rest of the Members, is the 
report that Dr. Somerville stated--and I don't know the full 
name of the report. It was a military report, the CNA report. 
Maybe Dr. Somerville can give us the formal name of the study.
    Mr. Somerville. Yes, I am glad to do that. It is ``National 
Security and the Threat of Climate Change,'' 2007, the CNA 
Corporation.
    Mr. Whitfield. We will be happy to do that.
    And we will also include this document, ``More Than 700 
International Scientists Dissent Over Man-Made Global Warming 
Claims.'' Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Waxman. Mr. Chairman?
    Mr. Whitfield. Yes.
    Mr. Waxman. First of all, I want to thank you for holding 
this hearing. I think it was important for us to hear about the 
science of this whole issue.
    But I was just informed that you are planning to call a 
meeting of our subcommittee to mark up the bill on Thursday, 
and I want to make a request that you not do that. I have 
extended an offer to you to work with you. I would hate to see 
Congress take a position on declaring science, a science 
conclusion that what the EPA determined was false, amending the 
Clean Air Act and denying the EPA ability to do anything.
    I would hope we could come up with a more nuanced and more 
reasonable policy in light of what we are hearing from people 
today and how this issue is of a great deal of significance to 
many of us. So I would appeal to you to meet with us, no 
preconditions, and see if we can come up with something better.
    Mr. Whitfield. Well, Mr. Waxman, thank you very much for 
those comments. And, you know, these are some issues that there 
are significant disagreements on. And I know that when we have 
this markup on Thursday there will be a lot of debate, a lot of 
amendments, and we will air it all out at that time.
    And I want to thank the witnesses for being here today very 
much. We appreciate your testimony. This is a very--your 
testimony is very important.
    I would like to also remind Members that they have 10 
business days to submit questions for the record.
    And I ask that the witnesses all agree to respond as 
quickly as you can to any questions that come your way. I know 
Mr. Griffith has a lot.
    And so, with that----
    Mr. Rush. Mr. Chairman? Mr. Chairman?
    Mr. Whitfield. Yes, sir.
    Mr. Rush. Mr. Chairman, I would ask, if I could, I would 
join with the ranking member of the full committee and ask that 
this subcommittee delay the markup that is occurring on 
Thursday.
    You know, Mr. Chairman, it seems like we are trying to 
force-feed a hoax on the American people. And I just think that 
we should be more deliberative and that we should take our time 
with this.
    The ranking member has offered his sincere request that we 
delay this and offered his participation and his eagerness to 
work with you and the committee and the subcommittee on trying 
to come up with some kind of modification of the bill that is 
currently going to be under markup. And I would join him in 
that.
    I just think it is important, Mr. Chairman, that we take 
our time on this, because, as you can see, there is not any 
agreement. As a matter of fact, most of the scientific 
community basically take odds, enormous odds, with the opinion 
of the majority on this particular issue.
    Mr. Whitfield. Well, Mr. Rush, thank you very much. I 
appreciate your and Mr. Waxman's comments. We certainly have a 
lot of respect for both of you and your views.
    As I said in the beginning of this hearing, we have had 24, 
now 25 hearings on the science on this issue. And on this side 
of the aisle, we feel like that EPA is really forcing us to act 
quickly because Congress has addressed this issue three 
separate times and said ``no'' each time.
    So we will go by regular order. It will be in the 
subcommittee, it will be in the full committee, and if it is 
able to get out of there, it will be on the floor. So we will 
have plenty of opportunity for debate, plenty of opportunity 
for amendment. And we look forward to working with all of you.
    So, with that, the committee is adjourned. Thank you very 
much.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    <bullet> As chair of Energy and Commerce, I see a country 
that needs a whole lot more of both. Accomplishing this is the 
core goal of this committee and is why I have introduced HR 
910, the Energy Tax Prevention Act of 2011. This bill would 
stop the EPA's global warming regulatory agenda, an agenda that 
poses a serious threat to the economy and to job growth.
    <bullet> The issues here are not new, as Congress grappled 
with cap and trade legislation in 2009. There were a lot of 
hearings on global warming, including the science. Some were 
held before this committee and more before the Select 
Committee. At the end of that debate, I concluded that cap and 
trade energy taxes would impose far more economic pain than 
environmental gain, and I did not support the legislation.
    <bullet> For me, that decision is an even easier one when 
it comes to EPA's attempt to impose the regulatory equivalent 
of the failed climate cap-and-tax legislation.
    <bullet> This subcommittee has held two hearings on the 
Energy Tax Prevention Act. Both focused on the economic 
impacts. We learned about the jobs EPA's global warming 
regulations are already costing manufacturers. It was the 
number one concern for most of the manufacturers that 
testified.
    <bullet> At both hearings, there was a concerted effort by 
some to shift the emphasis away from the economics of EPA's 
regulatory agenda, and discuss global warming science instead. 
But these discussions miss the point of HR 910. The bill is not 
a referendum on global warming science, it is a referendum on 
the merits of EPA's regulations.
    <bullet> We already learned about the high costs of this 
agenda last year, but we also gained insights into its 
inconsequential environmental impacts. EPA's unilateral 
measures would only shift emissions to other countries. In 
other words, we would be outsourcing both jobs and emissions, 
harming ourselves economically but accomplishing nothing 
environmentally. No matter what your beliefs in the climate 
science spectrum, you should have substantial doubts that EPA's 
regulations make any sense.
    <bullet> Beyond the science, let us not lose sight of the 
bigger issue, and that is whether EPA has offered a reasonable 
response, and it most definitely has not. For that reason, we 
need to enact HR 910.

[GRAPHIC] [TIFF OMITTED] T6704.146

[GRAPHIC] [TIFF OMITTED] T6704.147

[GRAPHIC] [TIFF OMITTED] T6704.148

[GRAPHIC] [TIFF OMITTED] T6704.149

[GRAPHIC] [TIFF OMITTED] T6704.150

[GRAPHIC] [TIFF OMITTED] T6704.151

[GRAPHIC] [TIFF OMITTED] T6704.152

[GRAPHIC] [TIFF OMITTED] T6704.153

[GRAPHIC] [TIFF OMITTED] T6704.154

[GRAPHIC] [TIFF OMITTED] T6704.155

[GRAPHIC] [TIFF OMITTED] T6704.156

[GRAPHIC] [TIFF OMITTED] T6704.157

[GRAPHIC] [TIFF OMITTED] T6704.158

[GRAPHIC] [TIFF OMITTED] T6704.159

[GRAPHIC] [TIFF OMITTED] T6704.160

[GRAPHIC] [TIFF OMITTED] T6704.161

[GRAPHIC] [TIFF OMITTED] T6704.162

[GRAPHIC] [TIFF OMITTED] T6704.163

[GRAPHIC] [TIFF OMITTED] T6704.164

[GRAPHIC] [TIFF OMITTED] T6704.165

[GRAPHIC] [TIFF OMITTED] T6704.166

[GRAPHIC] [TIFF OMITTED] T6704.167

[GRAPHIC] [TIFF OMITTED] T6704.168

[GRAPHIC] [TIFF OMITTED] T6704.169

[GRAPHIC] [TIFF OMITTED] T6704.170

[GRAPHIC] [TIFF OMITTED] T6704.171

[GRAPHIC] [TIFF OMITTED] T6704.172

[GRAPHIC] [TIFF OMITTED] T6704.173

[GRAPHIC] [TIFF OMITTED] T6704.174

[GRAPHIC] [TIFF OMITTED] T6704.175

[GRAPHIC] [TIFF OMITTED] T6704.176

[GRAPHIC] [TIFF OMITTED] T6704.177

[GRAPHIC] [TIFF OMITTED] T6704.178

[GRAPHIC] [TIFF OMITTED] T6704.179

[GRAPHIC] [TIFF OMITTED] T6704.180

[GRAPHIC] [TIFF OMITTED] T6704.181

[GRAPHIC] [TIFF OMITTED] T6704.182

[GRAPHIC] [TIFF OMITTED] T6704.183

[GRAPHIC] [TIFF OMITTED] T6704.184

[GRAPHIC] [TIFF OMITTED] T6704.185

[GRAPHIC] [TIFF OMITTED] T6704.186

[GRAPHIC] [TIFF OMITTED] T6704.187

[GRAPHIC] [TIFF OMITTED] T6704.188

[GRAPHIC] [TIFF OMITTED] T6704.189

[GRAPHIC] [TIFF OMITTED] T6704.190

[GRAPHIC] [TIFF OMITTED] T6704.191

[GRAPHIC] [TIFF OMITTED] T6704.192

[GRAPHIC] [TIFF OMITTED] T6704.193

[GRAPHIC] [TIFF OMITTED] T6704.194

[GRAPHIC] [TIFF OMITTED] T6704.195

[GRAPHIC] [TIFF OMITTED] T6704.196

[GRAPHIC] [TIFF OMITTED] T6704.197

[GRAPHIC] [TIFF OMITTED] T6704.198

[GRAPHIC] [TIFF OMITTED] T6704.199

[GRAPHIC] [TIFF OMITTED] T6704.200

[GRAPHIC] [TIFF OMITTED] T6704.201

[GRAPHIC] [TIFF OMITTED] T6704.202

[GRAPHIC] [TIFF OMITTED] T6704.203

[GRAPHIC] [TIFF OMITTED] T6704.204

[GRAPHIC] [TIFF OMITTED] T6704.205

[GRAPHIC] [TIFF OMITTED] T6704.206

[GRAPHIC] [TIFF OMITTED] T6704.207

[GRAPHIC] [TIFF OMITTED] T6704.208

[GRAPHIC] [TIFF OMITTED] T6704.209

[GRAPHIC] [TIFF OMITTED] T6704.210

[GRAPHIC] [TIFF OMITTED] T6704.211

[GRAPHIC] [TIFF OMITTED] T6704.212

[GRAPHIC] [TIFF OMITTED] T6704.213

[GRAPHIC] [TIFF OMITTED] T6704.214

[GRAPHIC] [TIFF OMITTED] T6704.215

[GRAPHIC] [TIFF OMITTED] T6704.216

[GRAPHIC] [TIFF OMITTED] T6704.217

[GRAPHIC] [TIFF OMITTED] T6704.218

[GRAPHIC] [TIFF OMITTED] T6704.219

[GRAPHIC] [TIFF OMITTED] T6704.220

[GRAPHIC] [TIFF OMITTED] T6704.221

[GRAPHIC] [TIFF OMITTED] T6704.222

[GRAPHIC] [TIFF OMITTED] T6704.223

[GRAPHIC] [TIFF OMITTED] T6704.224

[GRAPHIC] [TIFF OMITTED] T6704.225

[GRAPHIC] [TIFF OMITTED] T6704.226

[GRAPHIC] [TIFF OMITTED] T6704.227

[GRAPHIC] [TIFF OMITTED] T6704.228

[GRAPHIC] [TIFF OMITTED] T6704.229

[GRAPHIC] [TIFF OMITTED] T6704.230

[GRAPHIC] [TIFF OMITTED] T6704.231

[GRAPHIC] [TIFF OMITTED] T6704.232

[GRAPHIC] [TIFF OMITTED] T6704.233

[GRAPHIC] [TIFF OMITTED] T6704.234

[GRAPHIC] [TIFF OMITTED] T6704.235

[GRAPHIC] [TIFF OMITTED] T6704.236

[GRAPHIC] [TIFF OMITTED] T6704.237

[GRAPHIC] [TIFF OMITTED] T6704.238

[GRAPHIC] [TIFF OMITTED] T6704.239

[GRAPHIC] [TIFF OMITTED] T6704.240

[GRAPHIC] [TIFF OMITTED] T6704.241

[GRAPHIC] [TIFF OMITTED] T6704.242

[GRAPHIC] [TIFF OMITTED] T6704.243

[GRAPHIC] [TIFF OMITTED] T6704.244

[GRAPHIC] [TIFF OMITTED] T6704.245

[GRAPHIC] [TIFF OMITTED] T6704.246

[GRAPHIC] [TIFF OMITTED] T6704.247

[GRAPHIC] [TIFF OMITTED] T6704.248

[GRAPHIC] [TIFF OMITTED] T6704.249

[GRAPHIC] [TIFF OMITTED] T6704.250

[GRAPHIC] [TIFF OMITTED] T6704.251

[GRAPHIC] [TIFF OMITTED] T6704.252

[GRAPHIC] [TIFF OMITTED] T6704.253

[GRAPHIC] [TIFF OMITTED] T6704.254

[GRAPHIC] [TIFF OMITTED] T6704.255

[GRAPHIC] [TIFF OMITTED] T6704.256

[GRAPHIC] [TIFF OMITTED] T6704.257

[GRAPHIC] [TIFF OMITTED] T6704.258

[GRAPHIC] [TIFF OMITTED] T6704.259

[GRAPHIC] [TIFF OMITTED] T6704.260

[GRAPHIC] [TIFF OMITTED] T6704.261

[GRAPHIC] [TIFF OMITTED] T6704.262

[GRAPHIC] [TIFF OMITTED] T6704.263

[GRAPHIC] [TIFF OMITTED] T6704.264

[GRAPHIC] [TIFF OMITTED] T6704.265

[GRAPHIC] [TIFF OMITTED] T6704.266

[GRAPHIC] [TIFF OMITTED] T6704.267

[GRAPHIC] [TIFF OMITTED] T6704.268

[GRAPHIC] [TIFF OMITTED] T6704.269

[GRAPHIC] [TIFF OMITTED] T6704.270

[GRAPHIC] [TIFF OMITTED] T6704.271

[GRAPHIC] [TIFF OMITTED] T6704.272

[GRAPHIC] [TIFF OMITTED] T6704.273

[GRAPHIC] [TIFF OMITTED] T6704.274

[GRAPHIC] [TIFF OMITTED] T6704.275

[GRAPHIC] [TIFF OMITTED] T6704.276

[GRAPHIC] [TIFF OMITTED] T6704.277

[GRAPHIC] [TIFF OMITTED] T6704.278

[GRAPHIC] [TIFF OMITTED] T6704.279

[GRAPHIC] [TIFF OMITTED] T6704.280

[GRAPHIC] [TIFF OMITTED] T6704.281

[GRAPHIC] [TIFF OMITTED] T6704.282

[GRAPHIC] [TIFF OMITTED] T6704.283

[GRAPHIC] [TIFF OMITTED] T6704.284

[GRAPHIC] [TIFF OMITTED] T6704.285

[GRAPHIC] [TIFF OMITTED] T6704.286

[GRAPHIC] [TIFF OMITTED] T6704.287

[GRAPHIC] [TIFF OMITTED] T6704.288

[GRAPHIC] [TIFF OMITTED] T6704.289

[GRAPHIC] [TIFF OMITTED] T6704.290

[GRAPHIC] [TIFF OMITTED] T6704.291

[GRAPHIC] [TIFF OMITTED] T6704.292

[GRAPHIC] [TIFF OMITTED] T6704.293

[GRAPHIC] [TIFF OMITTED] T6704.294

[GRAPHIC] [TIFF OMITTED] T6704.295

[GRAPHIC] [TIFF OMITTED] T6704.296

[GRAPHIC] [TIFF OMITTED] T6704.297

[GRAPHIC] [TIFF OMITTED] T6704.298

[GRAPHIC] [TIFF OMITTED] T6704.299

[GRAPHIC] [TIFF OMITTED] T6704.300

[GRAPHIC] [TIFF OMITTED] T6704.301

[GRAPHIC] [TIFF OMITTED] T6704.302

[GRAPHIC] [TIFF OMITTED] T6704.303

[GRAPHIC] [TIFF OMITTED] T6704.304

[GRAPHIC] [TIFF OMITTED] T6704.305

[GRAPHIC] [TIFF OMITTED] T6704.306

[GRAPHIC] [TIFF OMITTED] T6704.307

[GRAPHIC] [TIFF OMITTED] T6704.308

[GRAPHIC] [TIFF OMITTED] T6704.309

[GRAPHIC] [TIFF OMITTED] T6704.310

[GRAPHIC] [TIFF OMITTED] T6704.311

[GRAPHIC] [TIFF OMITTED] T6704.312

[GRAPHIC] [TIFF OMITTED] T6704.313

[GRAPHIC] [TIFF OMITTED] T6704.314

[GRAPHIC] [TIFF OMITTED] T6704.315

[GRAPHIC] [TIFF OMITTED] T6704.316

[GRAPHIC] [TIFF OMITTED] T6704.317

[GRAPHIC] [TIFF OMITTED] T6704.318

[GRAPHIC] [TIFF OMITTED] T6704.319

[GRAPHIC] [TIFF OMITTED] T6704.320

[GRAPHIC] [TIFF OMITTED] T6704.321

[GRAPHIC] [TIFF OMITTED] T6704.322

[GRAPHIC] [TIFF OMITTED] T6704.323

[GRAPHIC] [TIFF OMITTED] T6704.324

[GRAPHIC] [TIFF OMITTED] T6704.325

[GRAPHIC] [TIFF OMITTED] T6704.326

[GRAPHIC] [TIFF OMITTED] T6704.327

[GRAPHIC] [TIFF OMITTED] T6704.328

[GRAPHIC] [TIFF OMITTED] T6704.329

[GRAPHIC] [TIFF OMITTED] T6704.330

[GRAPHIC] [TIFF OMITTED] T6704.331

[GRAPHIC] [TIFF OMITTED] T6704.332

[GRAPHIC] [TIFF OMITTED] T6704.333

[GRAPHIC] [TIFF OMITTED] T6704.334

[GRAPHIC] [TIFF OMITTED] T6704.335

[GRAPHIC] [TIFF OMITTED] T6704.336

[GRAPHIC] [TIFF OMITTED] T6704.337

[GRAPHIC] [TIFF OMITTED] T6704.338

[GRAPHIC] [TIFF OMITTED] T6704.339

[GRAPHIC] [TIFF OMITTED] T6704.340

[GRAPHIC] [TIFF OMITTED] T6704.341

[GRAPHIC] [TIFF OMITTED] T6704.342

[GRAPHIC] [TIFF OMITTED] T6704.343

[GRAPHIC] [TIFF OMITTED] T6704.344

[GRAPHIC] [TIFF OMITTED] T6704.345

[GRAPHIC] [TIFF OMITTED] T6704.346

[GRAPHIC] [TIFF OMITTED] T6704.347

[GRAPHIC] [TIFF OMITTED] T6704.348

[GRAPHIC] [TIFF OMITTED] T6704.349

[GRAPHIC] [TIFF OMITTED] T6704.350

[GRAPHIC] [TIFF OMITTED] T6704.351

[GRAPHIC] [TIFF OMITTED] T6704.352

[GRAPHIC] [TIFF OMITTED] T6704.353

[GRAPHIC] [TIFF OMITTED] T6704.354

[GRAPHIC] [TIFF OMITTED] T6704.355

[GRAPHIC] [TIFF OMITTED] T6704.356

[GRAPHIC] [TIFF OMITTED] T6704.357

[GRAPHIC] [TIFF OMITTED] T6704.358

[GRAPHIC] [TIFF OMITTED] T6704.359

[GRAPHIC] [TIFF OMITTED] T6704.360

[GRAPHIC] [TIFF OMITTED] T6704.361

[GRAPHIC] [TIFF OMITTED] T6704.362

[GRAPHIC] [TIFF OMITTED] T6704.363

[GRAPHIC] [TIFF OMITTED] T6704.364

[GRAPHIC] [TIFF OMITTED] T6704.365

[GRAPHIC] [TIFF OMITTED] T6704.366

[GRAPHIC] [TIFF OMITTED] T6704.367

[GRAPHIC] [TIFF OMITTED] T6704.368

[GRAPHIC] [TIFF OMITTED] T6704.369

[GRAPHIC] [TIFF OMITTED] T6704.370

[GRAPHIC] [TIFF OMITTED] T6704.371

[GRAPHIC] [TIFF OMITTED] T6704.372

[GRAPHIC] [TIFF OMITTED] T6704.373

[GRAPHIC] [TIFF OMITTED] T6704.374

[GRAPHIC] [TIFF OMITTED] T6704.375

[GRAPHIC] [TIFF OMITTED] T6704.376

[GRAPHIC] [TIFF OMITTED] T6704.377

[GRAPHIC] [TIFF OMITTED] T6704.378


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
